<html>
<title> - UNSUSTAINABLE DRUG PRICES (PART III): TESTIMONY FROM ABBVIE CEO RICHARD GONZALEZ</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]






 
                 UNSUSTAINABLE DRUG PRICES (PART III):

               TESTIMONY FROM ABBVIE CEO RICHARD GONZALEZ

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2021

                               __________

                           Serial No. 117-22

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                           ______    
                              
             U.S. GOVERNMENT PUBLISHING OFFICE 
44-685 PDF           WASHINGTON : 2021                             
                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     David Rapallo, Staff Director
           Amish Shah, Ali Golden, Miles Lichtman, Team Leads
                       Elisa LaNier, Chief Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------               
                                 
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 18, 2021.....................................     1

                               Witnesses

Dr. Aaron Kesselheim, Associate Professor of Medicine, Harvard 
  Medical School
    Oral Statement...............................................     4
Mr. Craig Garthwaite, Herman Smith Research Professor in Hospital 
  and Health Services, Kellogg School of Management at 
  Northwestern University
    Oral Statement...............................................     6
Mr. Tahir Amin, Co-Founder and Co-Executive Director, Initiative 
  for Medicines, Access, and Knowledge
    Oral Statement...............................................     8
Mr. Richard Gonzalez, Chairman of the Board and Chief Executive 
  Officer, AbbVie Inc.
    Oral Statement...............................................    10

 Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           Index of Documents

                              ----------                              
Documents entered during the hearing by Unanimous Consent (UC), 
  and other documents for this hearing are listed below.

  * Committee Staff Report on AbbVie: Humira and Imbruvica; 
  submitted by Chairwoman Maloney.

  * Report mentioned and created by Rep. Porter; submitted by 
  Chairwoman Maloney.

  * Report by I-MAK on Keytruda's Patent Wall; submitted by 
  Chairwoman Maloney.

  * UC: 2013 Research Study by the University of North Carolina; 
  submitted by Rep. Pressley.

  * UC: Statement by Professor Robin Feldman at UC Hastings Law; 
  submitted by Chairwoman Maloney.

  * UC: Statement by Protect Our Care; submitted by Chairwoman 
  Maloney.
  * UC: Statement by Families USA; submitted by Chairwoman 
  Maloney.

  * UC: Statement by the American Economic Liberties Project; 
  submitted by Chairwoman Maloney.

  * UC: Statement by the Health Advocacy Summit; submitted by 
  Chairwoman Maloney.

  * UC: Statement by the Maryland Citizens Health Initiative; 
  submitted by Chairwoman Maloney.

  * UC: Statement by Treatment Action Group; submitted by 
  Chairwoman Maloney.

  * UC: Statement by Knowledge Ecology International; submitted 
  by Chairwoman Maloney.

  * UC: Statement by Michael Kades from the Washington Center for 
  Equitable Growth; submitted by Chairwoman Maloney.

The documents entered into the record for this hearing are 
  available at: docs.house.gov.


                 UNSUSTAINABLE DRUG PRICES (PART III):

               TESTIMONY FROM ABBVIE CEO RICHARD GONZALEZ

                              ----------                              


                         Tuesday, May 18, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:07 p.m., in 
room 2154, Rayburn Office Building, Hon. Carolyn Maloney 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Lynch, Cooper, 
Connolly, Raskin, Khanna, Mfume, Porter, Bush, Davis, Wasserman 
Schultz, Welch, Johnson, Sarbanes, Speier, Kelly, DeSaulnier, 
Gomez, Pressley, Comer, Jordan, Foxx, Hice, Grothman, Cloud, 
Gibbs, Higgins, Norman, Keller, Sessions, Biggs, Clyde, Mace, 
Franklin, LaTurner, Fallon, Herrell, and Donalds.
    Chairwoman Maloney. The committee will come to order.
    Without objection, the chair is authorized to declare of 
the recess of the committee at any time.
    I now recognize myself for an opening statement.
    For more than two years, this committee has engaged in one 
of the most comprehensive and in-depth investigations of 
pharmaceutical pricing practices ever conducted by Congress. 
This investigation was launched by my predecessor, the late 
chairman, Elijah Cummings, and I have been proud to carry 
forward this critical work.
    Last fall, the committee held two hearings with drug 
company CEOs and released five staff reports detailing our 
findings. This morning, we released a sixth staff report 
describing our findings on AbbVie, which sells two blockbuster 
drugs: Humira and Imbruvica. Our work has continued and 
confirmed what patients in this country have known for a long 
time: drug prices in the United States are unfair, 
unsustainable, and just plain wrong.
    This investigation also reveals something even more 
distressing. Drug companies are actively targeting the U.S. for 
price increases while cutting prices in the rest of the world. 
They are doing this by taking advantage of flaws and loopholes 
in our system, most importantly, the law that prevents Medicare 
from negotiating directly with drug companies for lower prices. 
Finally, our investigation has revealed that the justifications 
the pharmaceutical industry offers for why they need to raise 
prices simply do not hold water.
    Today we will hear from Richard Gonzalez, the CEO of 
AbbVie. We appreciate his attendance at today's hearing. 
Unfortunately, this hearing was delayed because it took more 
than a year and the threat of a subpoena before AbbVie agreed 
to voluntarily comply with this committee's investigation.
    AbbVie has repeatedly raised the prices of Humira, which is 
used to treat rheumatoid arthritis and other autoimmune 
diseases, and Imbruvica, a drug approved to treat different 
forms of cancer. AbbVie charges approximately $77,000 a year 
for a year's supply of Humira. That is 470 percent more than 
when the drug was launched in 2003. Humira is the highest-
grossing drug in the United States due, in large part, to these 
horrendous price increases. You see where it started out at 
$500 for a syringe; it is now at $2,984 just for a syringe. 
AbbVie and its partner, Janssen Biotech, charged even more, 
over $181,000 for a year's supply of Imbruvica. That is 74 
percent more than when the drug was launched in 2013. Experts 
estimate that by 2026, Imbruvica will be the fourth bestselling 
drug in the United States. These prices are outrageous and 
unfair.
    Even more outrageous is that Americans are the only ones 
paying them. In 2015, a single syringe of Humira was priced 
over $1,000 higher in the United States than in countries like 
Canada, Japan, Korea, and the United Kingdom. Even as AbbVie 
hikes its prices in the United States, it has actually been 
dropping its prices in other countries. In one internal 
presentation from 2016, AbbVie executives described this 
disparity as, and I quote, ``positive price in the U.S. and 
negative price overseas.'' AbbVie's price increases have paid 
off for the company's bottom line. Last year alone, AbbVie 
collected $16 billion in U.S. net revenue for Humira, and 
AbbVie and Janssen collected $4.3 billion for Imbruvica. That 
is more than $20 billion from American patients and taxpayers 
for just two drugs. And you see the massive pricing increase up 
to $16 billion from $200 million.
    Our investigation also uncovered evidence that AbbVie has 
exploited the U.S. patent system and engaged in anti-
competitive practices to extend its monopoly pricing. The 
committee has obtained internal documents showing that AbbVie's 
own executives projected its top-selling drug, Humira, would 
face competition from lower-priced versions of the drug, known 
as biosimilars, beginning in 2017. But AbbVie used legally 
questionable tactics to block lower-priced biosimilars from 
reaching America consumers until at least 2020. Those tactics 
made AbbVie a fortune, but cost Americans dearly. Based on 
these findings, I sent this letter to the FTC today, along with 
committee chairman of the Judiciary, Chairman Nadler, and 
Antitrust Subcommittee, Chairman Cicilline, asking for a formal 
inquiry into whether AbbVie's anti-competitive practices 
violated the law.
    Finally, I want to emphasize that drug companies make 
essential lifesaving products. If the last year has taught us 
anything, it is that we are all indebted to the scientists who 
pioneer new cures, therapies, and vaccines, so we want drug 
companies to be successful. But abusive, unfair pricing and 
anti-competitive practices mean these medications are out of 
reach for too many Americans. And instead of investing in new 
innovations, drug companies, like AbbVie, are dedicating 
significant portions of their research budgets to coming up 
with new ways to suppress competitive products. That means 
Americans are paying more, but we are getting less innovation. 
If we want to make a difference for patients and taxpayers, we 
need structural reforms like H.R. 3, which would finally allow 
Medicare to negotiate for lower drug prices like the rest of 
the world does. Congress must pass this commonsense reform and 
others so that patients and families can afford these 
prescriptions.
    I want to close by playing statements from patients who 
want to share their experiences with us about these two drugs. 
Please watch.
    [Video shown.]
    Chairwoman Maloney. These patients' stories show why we 
need immediate reform. We need to pass H.R. 3 this year to 
allow Medicare to negotiate lower drug prices for Americans 
like other foreign countries do. I thank these patients for 
their testimony, their very moving testimony, and I now 
recognize the distinguished ranking member, Mr. Comer, for an 
opening statement.
    Mr. Comer. Mr. Comer. Thank you, Madam Chair. Over the past 
year, we have seen the massive importance of research and 
development in vaccines and treatments. Operation Warp Speed, 
one of the greatest public/private partnerships in American 
history, resulted in the Federal Government partnering with 
private companies to invest hundreds of millions of dollars to 
develop and manufacture COVID-19 vaccines. The result, despite 
constant vilification by the Democrats, was the fastest vaccine 
development in history with the first vaccine approved in less 
than 12 months from the first discovery of COVID-19. Since 
then, two more vaccines have been approved with two more 
awaiting approval by the FDA. In addition, there have been 
numerous pharmaceutical treatments and medical devices 
innovated to treat COVID-19. As a result of these vaccines and 
therapies, cases and fatalities have plummeted, and our Nation 
is on the road to recovery.
    The catalyst behind these innovations have been 
intellectual property protections here in the United States. 
America's robust patent system enables enormous investments in 
the research and development of new medications, more generic 
drug competition, and new technologies to promote patient 
adherence. The research funded by these investments results in 
treatments and cures for countless diseases, enabling Americans 
to live longer and healthier lives. Yet today, the Democrats on 
this committee decry our country's intellectual property 
protections as the root of all evil in the pharmaceutical 
space. This is simply not true. Certainly there are companies 
that have abused our patent system, seeking hundreds of patents 
to prolong their ability to control the market for a particular 
treatment. But many seek patents simply to protect their 
intellectual property so they can recoup their investments.
    While seeking hundreds of patents on a medication or 
vaccine is not illegal under our existing system, it can be 
anti-competitive and result in higher costs for patients. 
Republicans in the House and Senate have sought to right this 
wrong through legislation that would stop pharmaceutical 
companies that seek to abuse the patent system and extend their 
control of the market, and prevent the use of settlement 
agreement to pay generics to delay entry into the market. 
Democrats have instead proposed H.R. 3, a massive government 
takeover of the pharmaceutical market that would result in 
significantly fewer treatments and vaccines from coming to 
market. We should not destroy the very system that has made the 
United States the world leader in medical innovation like our 
Democrat colleagues propose.
    Republicans want to protect innovation and consumers. This 
Congress Republicans introduced H.R. 19, a collection of 
bipartisan reforms to prevent anti-competitive behavior in 
pharmaceutical markets, bring more generics to market, 
incentivize innovation and research, and require pharmaceutical 
rebates to be included at the point of sale so that patients 
receive the benefits instead of pharmacy benefit managers, or 
PBMs. While Democrats were impeaching this President, 
Republicans were working to decrease the cost of prescription 
drugs for all Americans. Now, nearly two years later, Democrats 
have nothing to show for it and are attempting to try to attack 
yet again another pharmaceutical company rather than help 
Americans across the country.
    We must address rising prescription costs because high 
costs are hurting American families everywhere. Republicans 
presented a real plan to lower out-of-pocket costs and protect 
innovation for new treatments and cures. The American people 
need relief, but Speaker Pelosi has instead sought to pass a 
bipartisan plan and destroy intellectual property protection 
that our founding fathers even wanted. We must put people, not 
partisanship, first. I yield back the remainder of my time.
    Chairwoman Maloney. The gentleman yields back. I would now 
like to introduce our witnesses. Our first witness today is Dr. 
Aaron Kesselheim, who is an associate professor of medicine at 
Harvard Medical School. Dr. Kesselheim also testified at our 
committee's very first hearing on prescription drug prices back 
in January 2019. Then we will hear from Craig Garthwaite, who 
is the Herman Smith research professor in hospital and health 
services at the Kellogg School of Management at Northwestern 
University. Next, we will hear from Tahir Amin, who is the co-
founder and co-executive director of the Initiative for 
Medicines, Access, and Knowledge. Finally, we will hear from 
Richard Gonzalez, who is the chairman and CEO of AbbVie.
    The witnesses will be unmuted so we can swear them in. 
Please raise your right hands.
    Do you swear and affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Chairwoman Maloney. Le the record show that the witnesses 
answered in the affirmative. Thank you.
    And without objection your written statements will be made 
part of the record.
    With that, Dr. Kesselheim, you are now recognized for your 
testimony. Dr. Kesselheim?

  STATEMENT OF AARON KESSELHEIM, M.D., ASSOCIATE PROFESSOR OF 
                MEDICINE, HARVARD MEDICAL SCHOOL

    Dr. Kesselheim. Chairman Maloney, Ranking Member Comer, 
members of the committee, I am honored to talk with you about 
curbing abuses by drug makers that take advantage of our market 
exclusivity system for prescription drugs, raising the prices 
for these products and jeopardizing patient outcomes.
    The idea behind our patent system, enshrined in the 
Constitution, is that a period of exclusivity enables 
innovators to profit from their creations, and then allows 
others to compete once that period is over to prevent a 
permanent monopoly. In the drug market, this dynamic is 
important since medications are costly to create and test for 
efficacy and safety. In the U.S., drugs are covered by patents 
on their active ingredient, and other Federal laws, like the 
Orphan Drug Act, provides special additional exclusivity for 
rare disease drugs for seven years, for biologics for 12 years, 
after approval. With all of these exclusivities, drugs 
routinely get an average of about 14-and-a-half years of market 
exclusivity, while biologics receive 21-and-a-half years. 
During this time, brand name drug manufacturers charge high 
prices. Alone in the industrialized world, the U.S. lets drug 
makers set the prices they choose for patented products. U.S. 
law then allows manufacturers to raise prices each year during 
market exclusivity, well beyond inflation. High prices lead 
patients to skip doses and worse health outcomes.
    When market exclusivity ends, real competition is supposed 
to begin. Generics can quickly become the default prescription 
because they can be automatically interchanged, lowering prices 
70, 80 percent or more. Biosimilars have been slow to enter the 
U.S., and none have yet been FDA certified as interchangeable, 
but we found that each biosimilar entrant reduces prices about 
4 to 10 percent. This system has become subject to many abuses 
as brand name manufacturers try to delay effective competition. 
A common strategy is obtaining a thicket of dozens or even 
hundreds of patents. So-called secondary patents cover 
peripheral features of the drug, like intermediate compounds 
are methods of treatment. Tertiary patents cover the delivery 
mechanism, such as an injection pain or inhaler. The proportion 
of tertiary patents listed with the FDA tripled from 3 percent 
in 2000 to 9 percent in 2016. Some firms used this time to 
introduce new versions of their product with little or no 
clinical benefit for patients. For example, a firm might switch 
from a capsule to a patented tablet formulation that is not 
interchangeable.
    Many secondary and tertiary patents are actually bad 
patents that lack novelty or cover only minor obvious changes 
to the drug. One analysis revealed that legal challenges 
seeking to overturn the primary patent succeeded only eight 
percent of the time, while challenges to secondary patents were 
successful 67 percent. But litigation to overturn improperly 
granted patents can take years and millions of dollars to 
complete, and in recent years, many generic and biosimilar 
manufacturers have settled litigation, agreeing with their 
brand-name counterparts to keep potentially bad patents in 
place and not introduce their FDA-approved competitors in 
exchange for financial benefits.
    All of these issues can be observed with adalimumab, a drug 
acquired by what was then Abbott from a German company in 2000 
before it reached the U.S. market in 2003. As the primary 
patent was set to expire in 2016, litigation with biosimilars 
over its thicket of patents led to settlements blocking U.S. 
market entry until 2023, although these products entered most 
U.S. countries in 2018, leading to billions of dollars in 
excess spending.
    So what can you do? We need to protect and reward 
innovation, yet ensure timely competition after a reasonable 
period of market exclusivity. First, bad patents must be 
limited. Other patent offices around the world issue fewer bad 
patents by spending more time on review. In addition to 
granting more resources to the U.S. Patent Office, Congress 
should instruct it to develop new guidance on patenting 
standards so that trivial modifications would not be patented, 
while patents on novel innovations would remain. Another step 
would be to provide greater opportunity for administrative 
review prior to litigation via the already existing Patent 
Trial and Appeals Board. The PTAB should be required to review 
drug patents when they are listed with the FDA or are 
determined relevant to biosimilar approval.
    You can also take steps to ensure that manufacturers cannot 
use other market exclusivity periods to delay competition. For 
example, the seven-year orphan drug exclusivity should be 
curtailed for drugs used in much larger populations after 
approval or that bring in substantial revenue. And the 12-year 
regulatory exclusivity provided for biologic drugs should be 
shortened to match small molecule drugs because biologic drugs 
have similar development times. Finally, you desperately need 
to pass H.R. 3 to give the government the power to evaluate the 
benefits of new drugs so that we can make clear which 
modifications greatly help patients and which are useless 
product hopping intended to extend exclusivity. The government 
should be able to negotiate prices so that we do not, as we do 
now, pay exorbitant prices for so-called new drugs with minor 
changes, but only pay for clinically meaningful innovation.
    In conclusion, the drug exclusivity system was intended to 
provide a reasonable limited period after FDA approval during 
which brand-name manufacturers can earn fair, and even 
generous, revenues from their products. Strategies with 
adalimumab and other cases upset this balance and make it more 
lucrative for a drug company to invest in fending off 
competitors for decade-old products rather than coming up with 
important new discoveries. Ensuring that generic and biosimilar 
competition can occur in a timely fashion will have little 
detrimental effect on meaningful drug innovation, but would 
reduce overall healthcare spending, make medications more 
affordable, and promote improved patient outcomes.
    Thank you very much.
    Chairwoman Maloney. Thank you. Mr. Garthwaite, you are now 
recognized for your testimony. Mr. Garthwaite?

STATEMENT OF CRAIG GARTHWAITE, HERMAN SMITH RESEARCH PROFESSOR 
 IN HOSPITAL AND HEALTH SERVICES, KELLOGG SCHOOL OF MANAGEMENT 
                   AT NORTHWESTERN UNIVERSITY

    Mr. Garthwaite. Thank you, Chairwoman Maloney, Ranking 
Member Comer, and members of the committee for inviting me to 
testify today about issues related to drug pricing in the 
United States.
    As described in your opening statement, it is well known 
that the process of developing novel pharmaceutical products is 
expensive and risky. Innovative firms must make large, fixed, 
and sunk investments if they are to create the knowledge 
necessary to develop new drugs. The knowledge that results in 
this process is largely a public good. Absent government 
intervention, it would be hard for firms to protect that 
intellectual property and to stop competitors from copying 
their innovations and competing away any potential profits. 
Rational firms understand this eventuality, and absent such 
government intervention, they would be unwilling to invest in 
drug development. This would cause an economic condition known 
as ``hold up'' where valuable investments are simply not made.
    To avoid hold up, governments provide various types of 
intellectual property protection that allow innovative firms a 
time-limited period of market exclusivity in which they can 
enjoy enhanced market power. In this way, innovation policy 
regarding prescription drugs involves a difficult tradeoff 
where we accept some amount of reduced access today in order to 
provide the incentive for firms to innovate and develop drugs 
for tomorrow. I don't say this lightly. I fully understand that 
high prices can decrease access to potentially lifesaving 
medications, and we should consider policies, as I detail in my 
testimony, that limit that harm. But, frankly, there are no 
easy or simple answers here. Weakening existing intellectual 
property protections or using government power to set 
artificially low prices will decrease innovation and lead to 
its own access problems.
    You see, while it is clearly true that patients today 
paying high prices can suffer decreased access to medication, 
we must also acknowledge that those patients do enjoy a 
significant benefit that should not be overlooked: there is an 
existing drug that can treat their condition. For those 
suffering from conditions where there are no treatments, there 
is no drug available at any price. When we only focus on access 
problems related to prices, we ignore this other fundamental 
lack of access. Simply because these missing innovations and 
their affected patients are harder to specifically identify and 
not available for photo opportunities doesn't make them any 
less real. That said, we must remember that everything about 
the existing parameters of this tradeoff is simply a policy 
choice. There is nothing magical about our current 20-year 
patent length, and the very fact that this patent is constant 
across products, that it is constant across markets, suggests 
that it is not the result of some finely tuned calibration or 
economic model.
    As the market changes, it is reasonable, as this committee 
is doing, to revisit our policies related to both access and 
innovation. In doing so, I would argue that we should focus on 
two broad areas as our goals. We should be focusing as a 
government on limiting welfare losses where possible while 
drugs are covered by patents, and ensuring that periods of 
market exclusivity are expressly time limited and followed by 
competition, and robust competition, from generic and 
biosimilar entrants. Welfare losses during periods of market 
exclusivity can be limited by both promoting competition 
between branded products and ensuring the continued operation 
of well-functioning insurance markets.
    I outline several policies in my testimony that could 
accomplish these goals. These includes reforms, the Reinsurance 
Program in Part D, the buy and bill system for Part B, like 
``boy,'' improving information disclosure on the flow of funds 
in the value chain, and perhaps, most important, but most 
interesting given the video at the start of the testimony, is 
decreasing owners' cost-sharing for pharmaceuticals where the 
conversation there is as much about the price of the drug as it 
is about the insurance contract that we have, and particularly 
in Part D, an exceptionally poor insurance contract for many 
people buying expensive medications.
    Once firms have reached the end of their period of market 
exclusivity, regulations should support the rapid and vigorous 
entry of competition. If market structures don't allow for 
meaningful competition to emerge, there is a clear role for 
regulation to either create competitors or restrict pricing. 
When thinking about policies in the period of high prices being 
time limited, it is easy to recognize, given the other 
witnesses here today, that the committee is obviously concerned 
with the use and potential open use of patents. Often, critics 
of the existing intellectual property protection system will 
cite the sheer number of patents sought by pharmaceutical firms 
as evidence of nefarious behavior to deter entry. However, the 
number of patents is, at best, an incomplete metric. Our 
questions should be about the strength and the underlying 
validity of the patents, and not their sheer number.
    Modern products involved meaningful intellectual property 
related not to just to the product, but its production, and 
also its additional uses in other medical conditions, and we 
should examine the process of granting these patents, up to and 
including more resources for the Patent and Trademark Office. 
Others have called for sweeping reforms in the form of price 
regulation or in the form of limiting paths to one per product. 
Those reforms are overbroad, and while I understand it is 
tempting to cave to sort of the crass calculus that we can 
increase access today and allow for more innovation going 
forward, that is not true. We will suffer less innovation if we 
lower the returns on drugs, and we should debate the nature of 
that reduced innovation in our policies.
    Thank you very much for your time today.
    Chairwoman Maloney. Thank you. Mr. Amin, you are now 
recognized for your testimony. Mr. Amin?

STATEMENT OF TAHIR AMIN, CO-FOUNDER AND CO-EXECUTIVE DIRECTOR, 
        INITIATIVE FOR MEDICINES, ACCESS, AND KNOWLEDGE

    Mr. Amin. Chairwoman Maloney, Ranking Member Comer, and 
members of the committee, it is my honor to testify before you 
today.
    I spent the first decade of my legal career working as an 
attorney in the private sector securing and protecting IP. Many 
of my clients were American companies. I learned both the legal 
and business side of IP and its importance to inventors, 
investors, and companies. I also learned how to use loopholes 
to game the system. These loopholes enabled me to invent IP, 
right, so companies could obtain and maintain a monopoly in the 
market, while continuing to extract maximum profit. I speak to 
you today as someone who has seen both sides of the issue. I 
want to state up front this conversation is not about the death 
knell of innovation. It is about bringing equity to a system 
and about how well this system incentivizes genuine innovation.
    Roughly 34 million American adults know at least one friend 
or family who died in the past five years because they could 
not afford treatment, and that figure is double for people of 
color. Sadly, that is not surprising. U.S. prescription drug 
spending has increased by 76 percent from 2000 to 2017. These 
price hikes correspond with a dramatic increase in patenting 
activity in the pharmaceutical sector. America not only has a 
drug pricing crisis, but it also has a drug patenting crisis.
    Last week, the USPTO issued its 11 millionth patent. It 
took 155 years for the USPTO to issue its first 5 million 
patents in 1991. It has taken less one than one-fifth of that 
time to issue the next 6 million. Have we really become more 
inventive in the last 30 years, or have we just gotten better 
at inventing patents because our patent system no longer is 
stringent enough? The number of pharmaceutical patents granted 
in the U.S. more than doubled between 2005 and 2015.
    My organization has been analyzing the top 10 bestselling 
drugs in the U.S., and it found a total of 1,310 patent 
applications have been filed on these top 10 drugs, and 692 
patents have been granted on these drugs in total. On average, 
that is 131 patent applications and nearly 70 granted patents 
per drug. On average, 63 percent of these patents are filed 
after the first approval for marketing, and that gives an 
average duration of patent protection covering these drugs 
monopoly period of 38 years. And between 2014 and 2019, on 
average, we have seen a 71 percent price increase on these 
drugs. Two of the best-selling drugs on this top 10 list belong 
to AbbVie: Humira and Imbruvica. AbbVie has filed an 
astonishing 422 patent applications on these drugs alone. 
Ninety percent of the 257 patent applications filed for Humira 
were filed after the drug was first approved in 2002, and it 
has amassed a record 130 granted patents for Humira, and 39 
years of protection.
    Despite litigation by nine different companies, patents 
settlement agreements have allowed AbbVie to keep competitors 
out of the U.S. market until 2023. Due to a lack of immediate 
competition, that means the U.S. will have spent an estimated 
$77 billion before competition enters the market. Meanwhile, 
across the pond, competing biosimilar versions of Humira have 
already entered the European market, with prices dropping as 
much as 70 percent. A similar story with Imbruvica: 165 patent 
applications, and 88 have been granted so far. That is about 
one patent filed every month for the last 13 years. Granted, 
patents for Imbruvica give AbbVie a monopoly protection to 
2030, nine years more than the usual 20-year period, and during 
that extended period, Americans will spend $41 billion Humira 
and Imbruvica. And, again, generic companies have made 
settlement agreements.
    One of the arguments you probably hear today AbbVie uses to 
justify this wall of patents is that the drug treats several 
different disease indications, but AbbVie has employed what I 
call the drip fee patent strategy for Humira and Imbruvica. The 
initial patents on these drugs are already disclosed and 
protect many of the indications, setting out a strategic 
roadmap for getting future patents. AbbVie recycled their 
claims in their original patents on these drugs over a decade 
later by making some minor changes, such as specifying the 
dosing or combining them with existing drugs. They will do so 
because this patent system allows it.
    So how do we solve this problem? Well, before we get to the 
solutions, I want to just raise the point that Keytruda is 
about to trump Humira as the bestselling drug in the world in 
2024. And the additional years that Keytruda potentially has 
already amassed is going to cost Americans an estimated $137 
billion. Today we are talking about Humira and Imbruvica, but 
if Congress fails to act, tomorrow we will be talking about 
Keytruda and another drug.
    The solutions to the problem lie in raising the bar for 
what gets patented. Too many patents are granted that are too 
weak. We also need to change the incentives of the USPTO and 
the culture that is there. Basically, patents are granted to 
earn revenue, and we need to create a financial incentive that 
actually works outside of that. And also we need to reduce the 
prohibitive cost of challenging patents. American ingenuity is 
rightly a source of pride, and because of that, it is tempting 
to lionize the patent system. But patent activity today goes 
well beyond the limited time that the Constitution intended. 
Today's patent system had become less an engine for real 
invention than a tool for companies and their lawyers to 
exploit using legal and marketing Jedi tricks under the guise 
of innovation. And just because you invested money doesn't mean 
you have invented something.
    Congress has the ability to return the patent system to 
what it has always intended to be, not a vehicle for 
unprecedented profits, but an engine for discoveries that are 
truly unprecedented. Thank you.
    Chairwoman Maloney. Thank you. Mr. Gonzalez, you are now 
recognized for your testimony. Mr. Gonzalez?

STATEMENT OF RICHARD GONZALEZ, CHAIRMAN OF THE BOARD AND CHIEF 
                 EXECUTIVE OFFICER, ABBVIE INC.

    Mr. Gonzalez. Chairwoman Maloney, Ranking Member Comey, and 
members of the committee, I am Richard Gonzalez. I am the Chief 
Executive Officer of AbbVie, a company with approximately 
48,000 employees dedicated to developing new, innovative 
medicines for some of healthcare's most challenging diseases.
    The global pandemic of the last year highlights the 
critical role that the biopharmaceutical industry plays in 
driving science and innovation to tackle the most significant 
diseases facing our society. Our industry invests over $80 
billion per year in research and development to meet those 
challenges, and our company alone has invested approximately 
$50 billion since 2013, and has produced cures for diseases, 
like HCV, and therapies that are changing and prolonging the 
lives of patients suffering with cancer, rheumatoid arthritis, 
and other serious diseases. As we tackle the issues of drug 
pricing and access, it is important that we focus on what is 
working and what needs to change to make sure that patients get 
the medicines they need.
    The United States has the most advanced healthcare system 
in the world. It doesn't ration care or restrict access to 
therapies, and it is a leader in advancing science to provide 
cures to deadly diseases, like cancer. The United States is the 
most developed country when it comes to the use of generic 
drugs where over 90 percent of prescription volume are generic 
medicines with low out-of-pocket cost. Overall, most Americans 
have access to affordable medicines, and pharmaceutical 
companies, such as AbbVie, provide a number of forms of 
assistance for those who can't afford their medicines through 
co-pay support or free drug. The single largest patient group 
that lacks access to affordable medicines are standard Medicare 
Part D patients where the program design has put a significant 
cost burden on them. For these patients, reducing drug prices 
alone will not alleviate the challenge of access and 
affordability.
    Last fall, the House Committee on Oversight and Reform held 
two days of hearings to examine the prices of prescription 
drugs, and certainly drug pricing is important, and the 
industry has taken steps to reduce drug pricing in recent 
years. In fact, since 2017, the overall contribution of price 
to AbbVie's business has been negative. In the category of what 
is working well here in the U.S., the Medicare Part D Program 
has been highly cost effective. The market-based structure 
encourages aggressive price discounts and have yielded 
significant savings to the government since the Part D Program 
was established. Despite a 70 percent increase in enrollment, 
the compounded annual growth rate in drug spending, adjusted 
for the increase in enrollees, is 1.8 percent, or roughly in 
line with inflation, and it has been basically flat since 2015. 
The aggressive price rebates negotiated by Medicare Part D 
plans have also kept patient monthly premiums flat at roughly 
$33 since the program began in 2006. This data clearly 
demonstrates the overall cost effectiveness of the Part D 
Program.
    So what is not working in Part D is that some patients must 
bear too much of the out-of-pocket costs, and there is no cap 
on drug spending. Unlike other commercial forms of insurance, 
Part D enrollees cannot access co-pay support. They cannot 
purchase insurance to defray these costs, and they must pay 
open-ended drug expenses. The average out-of-pocket cost is 
almost 100 times higher for a medicine like Humira than any 
other U.S. patient group. No other prescription drug insurance 
program puts so much cost burden on the patient.
    We see the impact of the Part D design flaws most clearly 
in AbbVie's Patient Assistance Program where almost 40 percent 
of all Medicare Part D patients on Humira, or 1 out of 3, are 
seeking assistance and receiving free medicine. This stands in 
stark contrast to commercially insured Humira patients, where 1 
out of 100 sought assistance from the AbbVie Patient Assistance 
Program. Medicare Part D patients' out-of-pocket cost is the 
single biggest issue when it comes to drug affordability. 
Additionally, while the overall costs in Part D is well 
controlled, government spending in the catastrophic phase is 
increasing the overall spending, and it is another area that 
needs to be addressed.
    Industry, government, and healthcare plans should come 
together to significantly reduce out-of-pocket costs for 
patients and reapportion the cost in the catastrophic phase so 
that that spending will be well-controlled. Thank you.
    Chairwoman Maloney. And I now recognize myself for five 
minutes for questions.
    AbbVie has raised the price of Humira 27 times since 
launching the drug. At the same time, AbbVie has actually 
lowered the price of this drug in the rest of the world. Mr. 
Gonzalez, has AbbVie been raising Humira prices in the United 
States while lowering them internationally?
    Mr. Gonzalez. Madam Chairwoman, the system that you 
described is how it actually does work. Certainly outside the 
U.S., there is always pressure on price, and prices do come 
down somewhat outside the U.S. once a product is launched, and 
in the U.S., we do have the ability to be able to raise prices. 
I think the key point will be what is the net price that 
companies like ours actually achieve, and what is done with the 
difference between gross and net pricing. I think that is an 
important debate that we should have.
    Chairwoman Maloney. Reclaiming my time. Well, AbbVie's 
internal documents prove that you did raise prices in the U.S. 
even while you were lowering them internationally. I want to 
put up Exhibit 23. This is an AbbVie board of directors 
presentation from 2016. Mr. Gonzalez, please turn to page 3 in 
the exhibit. The heading of this slide says, and I quote, 
``Humira Has Been Positive Price in the U.S. and Negative Price 
Overseas.'' In other words, AbbVie raised the price in the 
U.S., while lowering it in the rest of the world. This document 
also shows that the company had a plan to continue hiking the 
price of Humira in the U.S. for several more years. Mr. 
Gonzalez, please turn to page 10. This page shows that AbbVie 
planned to raise the price of Humira for Americans in 2016, 
2017, 2018, 2019, and 2020, while cutting international prices 
each year. Mr. Gonzalez, did AbbVie actually go through with 
price increases on Americans during each of those years?
    Mr. Gonzalez. Madam Chairwoman, we would have had price 
increases on those years. That is a forward-looking, long-range 
planning document. I can't confirm for you whether or not it 
was those price increases. It is also important----
    Chairwoman Maloney. Well, reclaiming my time, the answer is 
``yes.'' AbbVie raised the price of Humira in the U.S. by even 
more than it originally planned. For example, instead of a 9.9 
percent price increase for 2016, AbbVie actually raised the 
price by 18 percent that year alone. Let me turn to the second 
drug, Imbruvica. Mr. Gonzalez, is it true that AbbVie charges 
more for Imbruvica in the U.S. than in other countries?
    Mr. Gonzalez. Actually, Imbruvica is marketed through our 
partner outside the U.S., so I am not familiar with the pricing 
associated with Imbruvica outside the U.S.
    Chairwoman Maloney. Well, we looked at the data. I want to 
show you another graph comparing the list price of Imbruvica 
around the world in 2018. As you can see in this chart, 
Americans pay far more for this drug than people in other 
countries. This is unfair. In 2018, the price of a tablet of 
Imbruvica in the U.S. was roughly double the price charged in 
France, Germany, and the U.K. Medicare Part D provides 
prescription drug coverage to more than 45 million Americans, 
yet it is prohibited by law from negotiating lower prices on 
behalf of the patients it covers. Mr. Gonzalez, do you know how 
much AbbVie made from Medicare in net sales of Humira and 
Imbruvica between 2014 and 2018?
    Mr. Gonzalez. It would have been approximately $2.3 billion 
for Humira and approximately $2.9 billion for Imbruvica.
    Chairwoman Maloney. Well, the documents we have, AbbVie's 
internal data shows that the company collected nearly $12.5 
billion, as in ``B,'' from Medicare during this five-year 
period just for these two drugs alone, and this number accounts 
for any rebates that AbbVie paid to Medicare. No wonder AbbVie 
and the other drug makers target the U.S. for price increases. 
They know that, unlike the rest of the world, our Medicare 
program is prohibited from negotiating directly for lower 
prices. This data demonstrates clearly why Congress must pass 
H.R. 3 to grant Medicare the power to negotiate lower drug 
prices for patients. We must pass this bill this year.
    I now yield to the distinguished ranking member, Mr. Comer.
    Voice. No, Ms. Foxx.
    Chairwoman Maloney. No, Ms. Foxx? OK. Ms. Foxx, the 
distinguished gentlewoman from North Carolina, is now 
recognized.
    Ms. Foxx. Thank you, Madam Chairman. My question is for Mr. 
Garthwaite. I want to relay a story from a recent report by the 
Information Technology and Innovation Foundation. ``Scientists 
at Walter Reed conducted initial research and put out a request 
for a private company to work with them to develop a vaccine 
for the Zika virus. Sanofi was the only company to respond and 
reached an agreement with U.S. Army in June 2016. Upon learning 
of the agreement, Senator Bernie Sanders demanded that the Army 
require reasonable pricing language, also known as price 
controls, in the deal. In response, Sanofi noted, 'We can't 
undermine the price of a vaccine we haven't even made yet,' and 
said that it is premature to consider or predict Zika vaccine 
pricing at this early stage of development.'' Sanofi also noted 
the proposed license would require it to make royalty payments 
to the government, and its exclusive license would not prevent 
other companies from developing competing vaccines.
    Following relentless media attacks, Sanofi announced it 
would not continue development of or seek a license to develop 
a vaccine. There is still no vaccine for the Zika virus. The 
taxpayers funded the research to identify the vaccine 
candidate, a private company agreed to take the risk of testing 
and manufacturing it, but this whole effort failed due to these 
progressive attacks. Thanks to these attacks, we may never know 
how many lives could have been spared by this vaccine. Mr. 
Garthwaite, if the threat of price controls on one potential 
product kills that innovation, what can happen if we threaten 
the entire industry with this type of socialist pricing like 
the one Democrats are proposing with H.R. 3?
    Mr. Garthwaite. So I think the economic evidence is clear 
that if we are going to decrease the potential revenues of a 
product, we will see fewer investments in research and 
development. And so very large price increases, we would worry, 
would lead to declines in innovation. Your question gets at 
another point well. Well, how do we think about U.S. Government 
research into drugs and how that should affect pricing? I know 
there is a lot of concern, at times expressed by other members 
of the panel today, that the NIH research shows up in the 
development of many drugs. And that is true because, in the 
example you gave, the NIH does a lot of basic science research, 
and that is what we want the government to do.
    But given we spent the money to do that, we then want 
private firms to take that research up and be willing to invent 
or develop new products. If you put price controls or 
restrictions on it about specific returns or fair pricing 
clauses, or anything like that, you will likely decrease the 
take-up of government intervention or government research, and 
society is no better off. And that is why we want to think 
about our government investments here as complements to the 
research that is done by private risk capital, and because they 
are complements, we want people to use the NIH research as much 
as possible. And I worry that price regulations of the nature 
in H.R. 3, but also, broadly, conversation that the NIH should 
restrict the prices of products using their research, are going 
to decrease the returns we get on our investments in the NIH.
    Ms. Foxx. Thank you very much. Mr. Gonzalez, in your 
opening statement, you described the competitive nature of the 
Medicare Part D program and how improvements to the program 
help seniors in my district lower their out-of-pocket costs. 
Now the Democrats are telling us that the only way forward on 
Part D is to have the government take it over and set prices so 
that the government can determine what medicines are 
worthwhile. Can you please help educate us on how the current 
Part D program is already a competitive market, and then how we 
need to improve it so that seniors are not facing higher costs?
    Mr. Gonzalez. I would tell you that in my experience, and I 
have got a tremendous amount of experience in this business, 
the Medicare Part D program is negotiated aggressively by the 
plans, and I will give you an example. Medicare for Humira gets 
a discount that is three percent higher, or a rebate that is 
three percent higher than the commercial side of the business. 
It gets that rebate despite the fact that it is roughly one-
sixth the volume. Normally, when you think about discounting, a 
consumer that had six times the volume would get the lower 
price, but in this case, it is the opposite of that. The 
government is getting the lower price.
    I would also tell you that if you look at the Medicare Part 
D plan, it is the structure of the plan that ultimately 
dictates the affordability issue for patients, and what I mean 
by that is this: you can take any other kind of patient in the 
United States, and, on average, they will pay for Humira around 
$120 a year. A Medicare patient has to pay $5,800 a year for 
Humira based on the structure of out-of-pocket costs, so, you 
know, an excessive amount. And you have to remember, these 
patients, on average, make $28,000 a year, and there is no 
ability to be able to support or subsidize that out-of-pocket 
cost because of the anti-kickback laws.
    So the only thing that we are left to do for a company like 
AbbVie, where we want patients to be able to get their drug, is 
we have a Patient Assistance Program where we provide drug for 
free, a full year of drug for free, for those patients who 
can't afford it, and we subsidize essentially the Medicare 
system. And think of it this way: for every 10 Medicare Humira 
patients, we are providing, free of charge, Humira to four of 
those patients.
    Ms. Foxx. Thank you very much. Dr. Fauci has said----
    Chairwoman Maloney. Your time has expired. The gentlelady's 
time has expired.
    Ms. Foxx. Thank you, Madam Chair.
    Chairwoman Maloney. The gentlewoman from the District of 
Columbia, Ms. Norton, you are now recognized for five minutes. 
Ms. Norton?
    Ms. Norton. Thank you, Madam Chair, for this important 
hearing. In 2003, Abbott Laboratories launched Humira at a 
price of $522 per 40-milligram syringe, or just over $6,200 
annually. Over the course of the next decade, Abbott raised the 
price of Humira 13 times. By 2013--remember we started in 
2003--a single 40-milligram syringe of the drug was priced at 
$1,024, started at $522. Now, that is nearly double what it was 
10 years earlier. AbbVie spun off its own company in 2013, 
taking Humira with it. Mr. Gonzalez, that is when you became 
CEO. Isn't that correct?
    Mr. Gonzalez. Yes, that is correct.
    Ms. Norton. Since that time, the increases in Humira have 
only accelerated. I would like to show a graph, and I hope that 
that graph can be put up now, Madam Chair, showing the price of 
a 40-milligram syringe of Humira, how it has grown from 2003 to 
today, and there the graph is up for everyone to see. You will 
notice that price increases really ramped up after 2013, the 
year AbbVie spun off and the year you became CEO. AbbVie has 
raised the price of Humira 14 times in just eight years, and 
those price increases were not small. In just the 10 months 
between March 2015 and January 2016, AbbVie increased the price 
of Humira by a total of 30 percent. That is in about a year.
    Today, the list price of a single 40-milligram syringe of 
Humira is $2,984, 470 percent more than its price at launch. 
That means that a year's supply of Humira now costs over, and 
get this number, $77,000. Internal data shows that Humira's net 
price, or the list price minus all rebates, discounts, and 
fees, have also increased over time. In fact, the net price 
increased by 110 percent, more than doubling between 2009 and 
2018.
    Dr. Kesselheim, what does this drastic increase in net 
price say to you about the role, if any, of rebates in driving 
up Humira's price over time?
    Dr. Kesselheim. Well, it says to me that that drug price 
increases have increased both on a gross scale, both in terms 
of list prices and in terms of net prices, that rebates, while 
they might have increased over that time, definitely have not 
increased enough to offset the substantial price increases that 
AbbVie has been allowed to get away with.
    Ms. Norton. Thank you, Madam Chair. The data are clear. 
AbbVie's repeated price increases of Humira have had costs to 
our health system with millions of dollars, and are simply 
unsustainable going forward. Madam Chair, I believe we need 
structural reforms, like H.R. 3, if are going to bring any 
relief to patients about the price increases I have just 
offered in my questioning. I thank you, and I yield back.
    Chairwoman Maloney. Thank you. The gentlelady yields back, 
and I agree with her.
    The gentleman from Georgia, Mr. Hice, is recognized for 
five minutes.
    Mr. Hice. Thank you, Madam Chair. We just saw one of the 
greatest public-private partnerships in the history of our 
country, and it was led by President Trump's administration. 
Despite the villainization of Operation Warp Speed by 
Democrats, the Federal Government and private companies 
invested literally hundreds of millions of dollars to develop 
and manufacture COVID-19 vaccines, and candidates thereof, not 
knowing whether or not those attempts would be approved. The 
results was that the first vaccine was approved in less than 12 
months from the discovery of COVID-19, and three vaccines were 
ultimately approved with others still waiting in line. And many 
are now actually praising Operation Warp Speed, and frankly, 
they are incorrectly giving the Biden administration accolades 
for the brevity of the program when, in fact, this current 
administration is absolutely not responsible for spearheading 
this whatsoever.
    This past summer, the House Select Subcommittee on 
Coronavirus exhibited skepticism of Operation Warp Speed. In 
fact the Democratic member who chairs that particular 
subcommittee sent a letter to HHS Secretary Alex Azar regarding 
Operation Warp Speed, and he made this quote: ``A lack of 
transparency in the development of a coronavirus vaccine, 
especially on an accelerated timeline, could contribute to the 
growth of anti-vaccination sentiment,'' end quote.
    This type of rhetoric, frankly, nearly--and certainly could 
have, and it did, it undermined one of the greatest 
achievements, medically, in our country's history. And 
fortunately the Trump administration did not bow to that kind 
of outrageous posturing by the Democrats. But once again, our 
country demonstrated how incredible our people are, as our 
greatest minds literally came together, in one of the darkest 
times in recent history. But now the United States may again 
not--well, let me put it this way--now we might never again be 
a leader in pharmaceutical innovation like we were with 
Operation Warp Speed if the Biden administration continues to 
pander to some of its most progressive members, like he did in 
endorsing an intelligence property waiver to the World Trade 
Organization.
    Listen to that. He supported and endorsed an intellectual 
property waiver. That is dangerous. That is thinking that is 
incomprehensible to me. Waiving intellectual property for COVID 
vaccines or any other type of medicine will make the United 
States and the world more reliant on countries like China and 
India for pharmaceuticals, and that is frightening when you 
look at and consider that their vaccines right now for COVID 
are far less effective than are ours. Frankly, it puts the 
future of drugs and vaccines that were created under a program 
like Operation Warp Speed at tremendous risk.
    Then you have countries like South Africa and India. They 
would like a resolution that would force pharmaceutical 
companies to share their COVID vaccines and therapy IP with 
developing countries, so they fall right in line with this type 
of waiver endorsement.
    And look, this is supported not only by our current 
administration. It is supported by other low-income countries, 
progressive groups, and more than 100 congressional Democrats 
right here, serving today.
    Now why do these countries want to end patent protection? 
That question has got to be answered. Well, they say they want 
to expand access to vaccines, but access for lower-income 
countries is already available. There was an article in The 
Wall Street Journal in April, where Merck announced such a 
thing.
    Fortunately we have some European countries and friends who 
are smart enough to realize the importance of intellectual 
property. In fact, German Chancellor Angela Merkel rejected 
this whole idea of waiving COVID vaccine patents, and she said, 
in the first place, it would not make more vaccines available, 
and it would weaken innovation in the future.
    So, look. Madam Chair, I just think it is very important 
that we protect those who are innovative inventors of 
medications. Certainly those that abuse the rights we should 
deal with. But we have got to protect the ability for these----
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Hice. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Tennessee, Mr. Cooper, is recognized for five 
minutes.
    Mr. Cooper. Madam Chair, I pass at this time.
    Chairwoman Maloney. The gentleman passes. Hank Johnson is 
now recognized. Hank Johnson.
    Mr. Johnson. Thank you, Madam Chair, and I want to thank 
you for holding this very important committee meeting. And Mr. 
Kesselheim, I would like to begin by addressing the frequent 
misconceptions that rebates provided to PBMs, or pharmacy 
benefit managers, are the cause of skyrocketing drug prices. 
Can you briefly explain what a rebate is?
    Dr. Kesselheim. Sure. In the system we have in the U.S., 
the drug companies are free to set whatever price they want, 
and the negotiating tool that the payers use in our system is 
negotiating rebates that are provided, you know, as an exchange 
for placement of the drug on the formulary or different 
utilization management strategies being implemented or not. And 
so those rebates, you know, ultimately reduce the price for 
different drugs, by different amounts.
    Mr. Johnson. OK. In testimony before the Senate in March, 
you noted that rebates, quote, ``do not keep pace with list 
price increases,'' end quote. What does that mean to the 
everyday person who is just trying to afford their life-saving 
medication?
    Dr. Kesselheim. Sure. Well, so first of all, over the last 
decade, overall drugs prices have increased by about 160 
percent, at the list level, and they have increased at a net 
level by about 60 percent. So, both of those are much greater 
than the change in inflation over that same period of time.
    But what that generally means to the individual person, a 
lot of people pay out-of-pocket costs that are based on the 
list prices that they experience, and that can mean a much 
higher out-of-pocket cost for individual patients. Increased 
net prices, though, also mean increased premiums that people 
pay for insurance overall, because those prices are reflected 
as well in the premiums that you pay as well as the individual 
out-of-pocket costs.
    Mr. Johnson. OK. So, I want to ask you about net price, or 
the amount a drug company collects after subtracting the 
rebates and discounts. If a drug's list price increases, and if 
those increases had, in fact, outpaced rebates, would you 
expect the net price of a drug to also increase over time? Yes 
or no.
    Dr. Kesselheim. Yes.
    Mr. Johnson. Thank you.
    Mr. Gonzalez, I would like to turn to you. Your company 
provided data on the average net price of Humira between 2009 
and 2018. I would like to display a graph created using this 
data, and this graph shows the annual net price for a weekly 
dose of Humira. Can we have that exhibit, please?
    [Pause.]
    Mr. Johnson. Well, I guess we are having some technical 
difficulties.
    Chairwoman Maloney. It is up. Mr. Johnson, it is up. We can 
all see the Humira Annual Net Price Bi-Weekly.
    Mr. Johnson. OK. Mr. Gonzalez, as you can see, the net 
price of Humira increased every single year between 2009 and 
2018. In fact, the net price of Humira increased by 110 
percent. In the Medicare channel, Humira's net price increased 
even more, by 151 percent.
    Dr. Kesselheim, what do these trends depict on this graph, 
or what do these trends depicted on this graph tell us about 
the rebates AbbVie was providing to PBMs during this time?
    Dr. Kesselheim. Those rebates, although they may have been 
increasing, the list price increases were far beyond--were 
increasing at a rate far beyond those list price increases, so 
the net price is overall increasing.
    Mr. Johnson. Mr. Gonzalez, the committee also received 
rebate data for your cancer drug, Imbruvica. In the Medicare 
and commercial channels, the rebates you gave to PBMs and 
insurance plans averaged between 4 and 11 percent. In contrast, 
you have raised the price of Imbruvica by 82 percent since it 
came to market. The data is clear. PBMs are not the primary 
driver of the dramatic price increases of AbbVie drugs. AbbVie 
is the primary driver of dramatic price increases.
    Would you agree with that, Dr. Kesselheim?
    Dr. Kesselheim. Yes, I would agree with that. Drugs prices 
are set by the pharmaceutical manufacturer, and, you know, PBMs 
and other insurers use rebates as a negotiating tool, and that 
helps reduce prices somewhat. But drug prices are generally set 
by the manufacturer.
    Mr. Johnson. So, we should not allow pharmaceutical 
companies to distract us with the argument that PBMs are 
responsible for the explosive increases in drug prices. It is 
actually the pharmaceutical industry itself, correct?
    Chairwoman Maloney. The gentleman's time has expired. The 
gentleman's time has expired.
    The gentleman from Wisconsin, Mr. Grothman, is now 
recognized for five minutes. Mr. Grothman.
    Mr. Grothman. Thank you. I am going to start off with Mr. 
Gonzalez. I am going to ask you a little bit about insulin and 
biosimilars. I have a bill that would transition to a BLA 
classification and require the FDA to regulate newly approved 
biologic insulin products as biosimilars, rather than brand-
name biologics, which would get more of these products to 
market and presumably save people a lot of money if they need 
insulin.
    There are rumors out there that your company would be 
opposed to that sort of thing. Could you comment on that?
    Mr. Gonzalez. Congressman, we are not in the insulin 
business. I would tell you it is not a market that I know a lot 
about, so I do not really have a point of view on it.
    Mr. Grothman. OK. I will ask Mr. Garthwaite. Do you have an 
opinion as to why it seems to be difficult to getting 
biosimilars to market for some competition in the insulin 
arena?
    Mr. Garthwaite. I think that--so I do not know the 
specifics of your bill so I want to be careful about exactly 
how I answer this, but I think overall, if we are worried about 
getting biosimilars to market, I think we will want to think--
and I detailed this in my testimony--a bit more about the 
relationship between rebates and market entry for biologic 
products, and the idea that we might think of the rules around 
rebating need to be different for biologic products than it is 
for small molecule. And this is primarily related to the fact 
that it is very hard for a new entrant to compete for the 
existing stock of patients that are medically stable on their 
product. And given that and given the way that exclusivity 
works for some of these rebates, it might be hard for new 
entrants to come in and be able to compete their way onto the 
formulary.
    So I think that, in particular, rebate contracts for 
biologics that reference the rival, the potential new entrant, 
and say they cannot be on the same tier of the formulary as us, 
should be looked at by both Congress and antitrust authorities 
as a way to potentially increase entry.
    Mr. Grothman. Do either of our other two witnesses have 
anything to comment on the possibility of getting biosimilars 
to market to lower the price of insulin?
    Dr. Kesselheim. Well, I would say I think it is extremely 
important to get biosimilars onto the market to lower the price 
of insulin, because what we really need for insulin is 
competition from more manufacturers and manufacturers----
    Mr. Grothman. I do not mean to cut you off, but could you 
tell me why, then, we do not do it? Why do you believe we do 
not do it, if it seems like such an obvious thing?
    Dr. Kesselheim. Well, actually, until recently insulin had 
been regulated as a small molecule product and not as a 
biosimilar, although I think the FDA has switched that over in 
the last year, so that now you can actually get a follow-on 
insulin on the market through an abbreviated VLA. And so 
hopefully we will soon start to see insulin biosimilars on the 
market, and hopefully some of them will be interchangeable so 
that we can actually get real, meaningful competition to try to 
lower the prices of insulin biologic products.
    I think, unfortunately, to this point, there have been, you 
know, problems with sort of getting--there has been litigation 
over insulin patents, and a lot of patents have been issued on 
insulin pens and other peripheral aspects of the insulin 
product, which has made it challenging for potential biosimilar 
or competitor entrants to get in the market, and required a lot 
of litigation. And so now at least we have a regulatory pathway 
to make that happen, and so hopefully we will see that soon. 
But I agree with you that the fact that we have not seen it 
until now is a major flaw.
    Mr. Grothman. And I will ask you, why do you think that is?
    Dr. Kesselheim. I think it is, again, a multifactorial 
reason. I think that, first of all, a lot of the insulin 
manufacturers have obtained patents on peripheral aspects of 
their products. Even though insulin itself has not changed much 
in the last couple of decades, there have been patents on the 
pens and delivery devices that have blocked entry of new 
products and led to litigation. And I think that is one aspect 
of it.
    Mr. Grothman. OK. I will ask one other question, a general 
question, for Garthwaite. It does alarm me that people in other 
countries pay so much less for drugs than this country, and 
just flat out, that should be wrong. Could you give me a quick 
summary as to how you feel we can get around that problem? I 
have a lot of sympathy with what, H.R. 3. I think it is kind of 
an extreme bill, but it seems ridiculous on its face that 
Americans have to pay so much more for drugs than other 
countries. Could you kind of respond?
    Mr. Garthwaite. I agree also. I find that, as an American 
citizen, some combination of annoying and offensive that we pay 
so much for drugs and European countries do not. I think the 
real question, though, is why we would think that the European 
price is the correct price that we should be thinking about. 
They are choosing to free ride on the innovation caused by 
American profits. I think attempting to adopt European prices 
in the United States should be an abrogation of the 
responsibility of policymakers. If we want to push forward to 
have stronger negotiation on prices in the United States, I 
think that is a debate that we should have. But I certainly do 
not think that I would like us to see to simply adopt the 
policies of Paris, London, and Berlin, in the United States.
    I think we also have to be honest that if we want to 
negotiate prices in that way we have got to be willing to say 
no to both existing and future innovation. And I want to be 
very clear. I am not saying we should have no conversation 
about reducing prices----
    Chairwoman Maloney. The gentleman's time has expired. 
Please wind up. The gentleman's time has expired.
    Mr. Garthwaite. I just think we should be honest about the 
tradeoffs. Thank you, Chairwoman Maloney.
    Chairwoman Maloney. Thank you. The gentleman from Maryland, 
Mr. Raskin, is now recognized for five minutes. Mr. Raskin.
    Mr. Raskin. Madam Chair, thank you. You know, Congress 
passed the Orphan Drug Act in 1983 to promote the development 
of treatments for rare diseases, which were defined as 
conditions that affect 200,000 people or fewer than that, and 
Congress understood that certain diseases could affect a 
population so small in the country that Big Pharma would not 
see a financial incentive to invest in the research for 
developing therapies and cures for them.
    The Orphan Drug Act intended to provide an incentive for 
companies to get into this research, most importantly by 
granting seven additional years of market exclusivity for drugs 
that have received what is known as the orphan designation.
    Now, Dr. Kesselheim, is Humira the type of drug that 
Congress was envisioning when it passed the Orphan Drug Act?
    Dr. Kesselheim. No. Humira is a blockbuster product that 
makes billions, tens of billions of dollars a year, and is 
extremely profitable. The Orphan Drug Act was initially 
designed to try to provide an incentive for companies to take 
up unprofitable products for extremely small patient 
populations.
    Mr. Raskin. In fact, it is the best-selling drug in the 
world.
    Well, Mr. Gonzalez, Humira is approved to treat a painful 
skin condition called hidradenitis suppurativa, or HS for 
short. Your company has obtained an orphan drug designation to 
use Humira as a treatment for HS, right?
    Mr. Gonzalez. That is correct.
    Mr. Raskin. And would you have researched Humira as a 
treatment for HS if it were not for the Orphan Drug Act?
    Mr. Gonzalez. Certainly, the orphan designation, it 
qualified for it because it was less than 200,000 patients, and 
normally there is a faster regulatory path.
    Mr. Raskin. Well, let me just short-circuit to get to the 
right answer here. According to an internal memo from your 
company, from October 2008, obtained by the committee, you 
determined that the HS patient market would be profitable even 
without Orphan Drug Act incentives. Isn't that right?
    Mr. Gonzalez. That is correct.
    Mr. Raskin. Yes. So, despite internal evaluations that 
expanding into the HS market would already prove profitable, 
corporate executives still pursued the additional market 
exclusivity through the orphan drug designation. Mr. Gonzalez, 
your company applied for and received two separate orphan drug 
approvals for HS, one for moderate to severe HS, and another 
specifically for patients 12 years and older. Did you apply for 
both of these orphan approvals at the same time?
    Mr. Gonzalez. I don't know the answer to that.
    Mr. Raskin. Well, as I understand it, no, you did not. The 
first of these applications was approved in September 2015, the 
second approved in October 2018.
    Dr. Kesselheim, why might AbbVie have delayed seeking the 
approval to treat HS in pediatric patients?
    Dr. Kesselheim. Well, this seems like actually a common 
practice in the pharmaceutical industry called ``salami 
slicing,'' in which companies try to slice up indications into 
small, discrete segments, to try to get as many different of 
these additional exclusivity protections as possible.
    Mr. Raskin. So, they enjoyed a 10-year period of 
exclusivity, and by spacing them out in this way they got three 
years longer than the seven years intended under the act. Due 
to the three-year delay, pediatric patients experiencing this 
painful skin condition were also possibly denied access to 
treatment due to insurance companies being less likely to 
reimburse the drug without formal approval.
    So the company claims the commitment to bringing the best 
science and therapies to patients, but here we have a clear 
case in which they were actively choosing to delay patients' 
access to treatments and to block competitors, simply for the 
sake of increasing their profits. Congress must act immediately 
to put a stop to these anticompetitive behaviors, including 
abuses of the Orphan Drug Act. Do you agree with that, Mr. 
Kesselheim?
    Dr. Kesselheim. I do.
    Mr. Raskin. And is this a question of one or two bad-apple 
companies, or are these structural problems that we are seeing 
throughout the entire sector?
    Dr. Kesselheim. As I said, I think that the behavior and 
the tactics and strategies that you are seeing in the Humira 
and Imbruvica cases around the Orphan Drug Act but also around 
price increases and others, those are common practices, and I 
think we have also heard about them with respect to the Orphan 
Drug Act and abuses of the Orphan Drug Act in obtaining the 
Orphan Drug Act protections for drugs that do not deserve it.
    You know, even one of the treatments for the pandemic, you 
know, transiently got orphan drug act protection at the 
beginning of the pandemic situation last year. So, I mean, I 
think that we see this all across the industry, and do think 
that it is time to reconsider trying to make the Orphan Drug 
Act apply to the drugs that it was originally intended to.
    Mr. Raskin. Well, thank you very much. We need structural 
change here, and I yield back to you, Madam Chair.
    Chairwoman Maloney. Thank you. The gentleman yields back. 
The gentleman from Ohio, Mr. Gibbs, is now recognized for five 
minutes.
    Mr. Gibbs. Thank you, Madam Chair. First I want to mention, 
Madam Chair, I have a bipartisan bill, co-sponsored with 
Senator Tonko from New York, H.R. 4629, the Star Rating for 
Biosimilars Act. This bill would help amend--bipartisan, would 
require HHS to evaluate Medicare Advantage plans based on 
whether biosimilars are available to enrollees, and set new set 
measures for the current five-star rating. So I just wanted to 
bring that to your attention.
    Mr. Garthwaite, you know, the other side of the aisle is 
talking about H.R. 3, how it needs to be passed, and one of my 
concerns I have is how they would price the drugs, and if they 
did not like what the drug companies priced the drugs there 
would be severe penalties. Do you think H.R. 3 would stifle 
innovation and research and development in this country if it 
were to pass?
    Mr. Garthwaite. I think given the projections of what we 
see for the reduction in revenue that would result from H.R. 3, 
which, I should note, is the intended goal of the legislation, 
the economic evidence is clear that we would see reduced 
investments in innovation in the form of clinical trial 
activity by firms, and that is something we saw the reverse of 
when we founded Medicare Part D, and saw that the increase in 
market size led to an increase in innovation and research and 
development activities.
    Mr. Gibbs. Mr. Gonzalez, would you concur that passage of 
H.R. 3--well, first let me say, Madam Chair, last Congress, 
former chairman Greg Walden from Oregon, introduced H.R. 19, 
that the More Cures, Lower Costs Act, and I think it is going 
to be soon introduced again. I think we ought to take a serious 
look at that.
    But Mr. Gonzalez, on H.R. 3, do you think it would stifle 
innovation and research and development in this country?
    Mr. Gonzalez. I think if you depress forward revenues it 
will definitely depress the ability to be able to do 
innovation. I think the CBO report that recently came out 
reinforced that point.
    Mr. Gibbs. Also, Mr. Gonzalez, when you talk about 4 out of 
10 your company subsidizes or makes drugs available free to 
patients that cannot afford them, is that in this country or is 
that overall?
    Mr. Gonzalez. No that is 4 out of 10 in the Medicare Part B 
plan.
    Mr. Gibbs. OK. So what is happening in, say, in Europe, in 
the EU? The prices are lower, but is there subsidization not 
going on, or what is happening in the foreign countries then?
    Mr. Gonzalez. We donate some product, but I would say it is 
relatively limited in socialized medicine systems. We donate--
--
    Mr. Gibbs. So let me stop you right there because I am 
using time here quickly. Is it safe to assume that a lot of our 
pricing, we are paying the whole cost for all the R&D and the 
rest of world isn't?
    Mr. Gonzalez. That is absolutely true.
    Mr. Gibbs. I am going to yield my two minutes to you, Mr. 
Gonzalez, to answer any questions that maybe you did not have a 
chance to answer, from previous questions. I yield my time to 
you. Go ahead.
    Mr. Gonzalez. Well, I think I would like to highlight a 
couple of the points that were made earlier, with some specific 
information. There was a lot of discussion about what impact 
would the rebates really have on list price and net price. I 
will use Humira as an example, because it is the one that I 
think keeps coming up here.
    If I look at Humira from 2017 to 2020, the gross price went 
up 7.9 percent. The net in the U.S. went up 2.6 percent. The 
difference between that was the increase in the rebates, so 
that gives you some feel for the rebate impact.
    Now, having said that, managed care and PBMs aggressively 
negotiate for increased rebates, and those rebates, to my 
knowledge, are returned to the government in the form of lower 
costs or lower premiums back to the patient, the insurance 
premiums. I think I saw a report recently that said 99.6 
percent of the rebate is returned to the government.
    So it is a different way of getting a discount. When you 
negotiate for formulary position, as a company like ours, you 
are obviously trying to get that formulary position. You are 
negotiating what rebate you have to give in order to be able to 
get that. You are trying to capture a little bit of net 
positive impact to offset inflationary costs and increases in 
R&D.
    And the other statistic that will give the committee, which 
I think is relevant, if you look at AbbVie since 2013, when we 
were formed, our net price impact was about 0.3 percent, on a 
compounded basis, or roughly $62 million a year in net price. 
To give you a flavor for where does that go, we have increased 
R&D, on average, $652 million per year.
    So the short answer is, yes, to get that price we invest 
more than that in increases in R&D.
    Mr. Gibbs. Thank you. I yield back.
    Chairwoman Maloney. Thank you. The gentleman from Virginia, 
Mr. Connolly, is now recognized for five minutes.
    Mr. Connolly. I thank the chairwoman. I thank you for this 
hearing.
    Mr. Gonzalez, there are six companies with FDA approval to 
sell biosimilar versions of Humira. Is that correct?
    Mr. Gonzalez. I believe so.
    Mr. Connolly. Are there any of those biosimilars besides 
yours on the market here in the United States currently?
    Mr. Gonzalez. Congressman, we are not biosimilar, but I 
don't believe any of them are on the market.
    Mr. Connolly. Right. None. That is a little surprising, 
because in your own internal documents, obtained by the 
committee, your company anticipated lower priced biosimilars to 
enter the U.S. market no later than 2017, four years ago, as is 
demonstrated in page 9, Exhibit 14, in your materials. 
According to that slide, AbbVie expected three to five 
biosimilar competitors by 2017. In fact, the bottom of the 
slide identifies a few of those potential competitors by name--
Amgen, for example. Amgen's biosimilar received FDA approval in 
2016, five years ago. Rather than allowing Amgen's biosimilar 
to enter the market, however, AbbVie sued Amgen for patent 
infringement.
    On September 28, 2017, AbbVie and Amgen entered into a 
settlement agreement, under which Amgen agreed not to enter the 
U.S. market until 2023.
    Mr. Gonzalez, AbbVie's own assessment of the strength of 
its patent portfolio determined it could only prevent 
biosimilar entry until 2017, and Amgen presumably looked at the 
same patent portfolio. So why would Amgen agree to wait until 
2023?
    Mr. Gonzalez. Congressman, I don't agree with the point of 
view that the assessment of our patent portfolio said we could 
only protect until 2017. This is planning document. It does an 
estimate at this point in time. I believe the documented was 
dated in 2014. So in 2014, the estimate was 2017. We updated 
that as we continued to move forward. Obviously, our patent 
portfolio played an important role in that.
    Mr. Connolly. Thank you, Mr. Gonzalez. I have limited time. 
Thank you. I am reminding you that you are under oath. During 
settlement negotiations with Amgen, was there any discussion of 
transferring any item of value, monetary or otherwise, to Amgen 
in exchange for staying off the market through 2023?
    Mr. Gonzalez. There was none, and they pay us royalties for 
our patent, when they come to market.
    Mr. Connolly. But you had other settlement agreements with 
other competitors, as the next chart shows. AbbVie how entered 
into a total of nine agreements with biosimilar manufacturers 
to stay off the market until 2023, six years after the entry 
date AbbVie projected, although you call that an internal 
planning document.
    Let me ask you again. During any of these settlement 
agreements was there any discussion of AbbVie transferring any 
item of value, including monetary value, to the competitors in 
exchange for staying off the U.S. market?
    Mr. Gonzalez. There was not. I think what it demonstrates 
is the value of our patent portfolio, and all of those 
competitors have agreed to pay royalties to access that patent 
portfolio.
    Mr. Connolly. So, during that same period, however, six 
biosimilars entered the European market in 2018, which reduced 
the price of Humira in Europe by as much as 80 percent. Why 
would the European market be so radically different with 
respect both to purported patent infringement and royalty 
payments, compared to that of the United States, where there is 
only you?
    Mr. Gonzalez. These are different patent portfolios around 
the world. The U.S. market has a set of patents that the U.S. 
Patent Office issues, and in the European system there are 
different patents.
    Mr. Connolly. According to your own internal projections, 
the U.S. would have saved $19 billion, and instead U.S. 
patients will not have access to lower-priced biosimilars until 
2023. Why would you account for the 80 percent difference in 
the price of Humira between Europe and the United States, other 
than lack of competition?
    By the way, unlike what Ms. Foxx suggested, it clearly 
isn't about recouping R&D costs. It is about lack of 
competition in the market.
    Mr. Gonzalez. I think it is about two things. Obviously, we 
have invested $16 billion in Humira, and we want to recoup that 
investment. The U.S. patent system is designed to give you a 
period of exclusivity, to be able to recover that investment.
    The other thing that is important to remember is, like many 
industries but certain in this industry, the products that are 
on the market today pay for the products of the future. We 
invest roughly $7 billion a year in research and development. 
It is the Humira's and the Imburvicas and these other 
products----
    Chairwoman Maloney. The gentleman's time has expired. 
Please wrap up. Thank you.
    Mr. Amin. Chairwoman Maloney, may I add something to this 
conversation, please?
    Mr. Connolly. With the indulgence of the chair.
    Chairwoman Maloney. Yes. Absolutely.
    Mr. Amin. Yes. I think it is important to recognize, I 
mean, Mr. Gonzalez talks about the planning document being 
2014. By our findings, a number of our patents were filed after 
2014. So obviously, the planning was to try and prevent the 
competition coming in, in 2017.
    It is also worth noting that a number of the EU patents 
were actually revoked or withdrawn because they were not 
actually up to strength in order to get a patent in Europe. So 
despite what Mr. Gonzalez is saying about the U.S. patent 
giving a limited time of exclusivity, unfortunately I would say 
the U.S. patent system actually over sort of provides 
exclusivity in the sense that companies can easily get more 
patents, and it can keep filing patents well into a drug's 
life, and that is why we have settlement agreements. And by 
some litigation statistics, some 74 patents were thrown at 
competitors and they just couldn't litigate through it. It was 
just impossible.
    Mr. Connolly. I thank the chair for her consideration, and 
I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Louisiana, Mr. Higgins, is now recognized for 
five minutes. Mr. Higgins?
    Mr. Higgins. Thank you, Madam Chair. Let me jump into H.R. 
3 and just get it out of the way. In my opinion it is massive 
Federal overreach.
    Professor Garthwaite, regarding development, affordability, 
and access to new treatments and cures, as someone who looks at 
this both from the medical and the business perspective, in 
your work at Northwestern, what concerns do you see in 
government overreach without private sector consideration or 
input as it impacts pharmaceutical prices in America?
    Mr. Garthwaite. I worry that using the power of government 
to set prices and push them down--and we should be clear that 
H.R. 3 which is often described as negotiation--is not a 
negotiation. This is price-setting of drugs and we should call 
it what it is and then debate the sort of validity of that. I 
worry it is going to decrease innovation.
    I do worry, as I detailed in my testimony, I worry about 
access. I worry about the ability of people to get access to 
drugs, today and in the future.
    I think a lot of the conversation we are seeing today, in 
the hearing and about drugs, is about the cost-sharing that 
insurance is putting on people, much more than it is just about 
the price of the drug, and in particular, Medicare Part D, 
which has extremely onerous cost-sharing on patients.
    Mr. Higgins. Agreed. Agreed, and thank you for your 
clarification. In the interest of time I am going to move on.
    Mr. Gonzalez, I find myself very much aligned with my 
colleagues across the aisle, which I am hoping that my friends 
will market a calendar. You have been under tremendous pressure 
today, and, sir, it is about to get worse.
    How can you defend American prices of pharmaceuticals 
overseas versus prices on drugs in the Nation that you love? 
You enjoy the protections and the benefits of America. You 
benefit from the Tax Cuts and Jobs Act that I worked very hard 
on and that my party pushed through. But your answers to the 
chair were evasive, at best, and appeared to be obviously 
written by attorneys.
    Please just explain to America how the hell can you explain 
the prices overseas of the drugs you manufacture in America, 
develop in America, that are so much higher for American 
citizens and patients than they are overseas? As briefly as you 
can.
    Mr. Gonzalez. Congressman, it is an excellent point. The 
short answer is, outside the United States you have socialized 
health care systems. They ration care or they set price.
    Mr. Higgins. Oh, but wait. Socialized health care. Let's 
talk about Europe. Thirty years ago, Europe was the center of 
the global pharmaceutical industry. In 1986, Europe led the 
United States spending on pharmaceutical research and 
development by 24 percent. After the imposition of socialized 
health care policies, they fell behind, and by 2015, they were 
lagging United States by 40 percent. So you are right--
socialist policies don't work. But you are an American company, 
making American money, and your market is global. American 
citizens should benefit from your love and commitment to the 
country wherein you live and work, good sir.
    I am going to move on, because I am going to give you an 
opportunity to explain the patent modifications--the other 
gentleman referred to them as trivial modifications--and your 
company. You have been accused of threatening patent 
litigation. The claim basically is that your patent portfolio 
and the threat of patent litigation to see favorable 
settlements with biosimilar manufacturers, to delay their entry 
into the market. Explain to America how you can prove the 
legitimacy of your patents, please.
    Mr. Gonzalez. Our patents go through a rigorous process at 
the U.S. Patent Office that looks at prior obviousness. The 
Patent Office narrows claims to make sure they are not overly 
broad. And to the point that the other gentleman raised a few 
moments ago, what I would tell you is if you thought they were 
frivolous patents, we deal with patents all the time.
    Mr. Higgins. Yes, they are frivolous. They are frivolous. 
Making minute changes to your product to extend your protection 
periods. We don't appreciate--look, I am no enemy of big 
business. I support freedoms, and you have the right to make 
your profit. You invest many billions to research and develop 
new pharmaceuticals, most of which never come to market. My 
research says that only 1 in 10 come to market. So you have the 
right to earn your honest profit.
    But it is the question of whether or not it is an honest 
profit, sir, that I would extend. And Madam Chair, my time has 
expired, but thank you. God bless you for holding these 
continued hearings.
    Chairwoman Maloney. Thank you. Thank you. The gentleman 
yields back. The gentleman from California, Mr. Ro Khanna, is 
recognized for five minutes. Mr. Ro Khanna.
    Mr. Khanna. Thank you, Madam Chair, and I appreciated 
Congressman Higgins' questions in a bipartisan way, and I want 
to pick up there.
    Mr. Gonzalez, can you tell us who invented the fully human 
monoclonal antibody?
    Mr. Gonzalez. It was invented as part of
    [inaudible], when we acquired
    [inaudible] back in two thousand and----
    Mr. Khanna. Do you know who it was?
    Mr. Gonzalez. No, I don't know.
    Mr. Khanna. You don't know who invented your biggest drug? 
It was Gregory Winter. Do you know who he is?
    Mr. Gonzalez. No.
    Mr. Khanna. He actually won the Nobel Prize in Chemistry 
for the invention. You know what he has to say about Humira? He 
said, ``I must not be a very good businessperson, because I 
didn't make the billions. All the other people made the 
billions.''
    Now, you know, you stand here saying you are for all this 
innovation and you believe in innovation, and you don't even 
know who the Nobel Laureate was who invented the drug that you 
are profiting on. Isn't there some disconnect there?
    Mr. Gonzalez. We focus our attention on just trying to 
create new innovation that helps patients.
    Mr. Khanna. How can you say you are creating new 
innovations when you don't even know the Nobel Laureate who 
came up with the innovation for Humira? Doesn't that show that 
what you are really doing is business? I mean, let's just be 
honest about it, as opposed to thinking that you are doing an 
innovation, when you don't know the person who invented the 
drug that you are profiting on.
    Let me ask you this. The patent that expired in 2016, 
obviously you have talked about extensive patent law, and you 
seem to understand what is needed. Can you explain two concepts 
and how you understand them, in terms of a new patent, and that 
is a novelty and non-obviousness? What does that mean to you? 
What does it mean for something to be novel and what does it 
mean for something to be non-obvious, as you understand it?
    Mr. Gonzalez. What I understand for non-obvious is that the 
Patent Office looks at the invention that you have, and they 
ask the question, someone skilled in the art, would they have 
thought of this as being obvious?
    Mr. Khanna. OK. Good. And how about a novelty?
    Mr. Gonzalez. Novelty I don't know that I could describe to 
you in as much detail.
    Mr. Khanna. Common sense, what would you think is novelty?
    Mr. Gonzalez. Common sense would be it is a novel theory, 
right? It is a novel approach.
    Mr. Khanna. You can't define a term with a term, but 
basically something new, right? Something that people haven't 
thought of.
    So let me ask you this. One of the examples of the new 
patent you filed, that Congressman Higgins and others feel is 
frivolous--I am not going to characterize it but you have 
characterized it. I mean, one of the ideas was that you had 
Humira, and all these doctors were prescribing it, and on your 
own marketing material you had told them, ``Here is the dose 
that you should prescribe it at.'' And then you file the patent 
to say that the dose that is on our marketing material, that we 
should have a patent on doctors prescribing that dose.
    Now, by your own definition of what is non-obvious, you 
said if a skilled person in the art, in the craft, knows it, 
then it is obvious. It doesn't qualify as non-obvious. How 
would you say, under novel and non-obvious--I would like to 
give you the opportunity to explain to the country how saying a 
dose for Humira, at a particular amount that is on your 
marketing material that every doctor in the country is already 
doing, how getting a patent on that is non-obvious or novel?
    Mr. Gonzalez. Well, it is really the Patent Office that 
makes that determination, and as I was trying to say before----
    Mr. Khanna. No, no, I get that. I want to understand it. I 
mean, you are obviously the CEO. You said, ``Let's go file a 
patent.'' You know, you may not have invented it, and you may 
not even know who won the Nobel Prize for the thing we're 
selling, but we'd like to claim that we didn't invent the 
therapy, but we want to get a patent on what we are putting on 
our marketing material for the dose. And you go and you say, 
``Go do it, lawyers.''
    So, what are you thinking about why that is the case? I 
mean, you wouldn't say, ``Let's get a patent for our brochures 
and how we sell things.'' So, what made you think, oh, it would 
be great idea to get the patent. It is such a novel invention, 
a non-obvious invention on the dose. I just want to understand 
the thinking that goes on there.
    Mr. Gonzalez. We patent innovation that we believe is 
meaningful and that we invested to understand why it was 
meaningful innovation, and how----
    Mr. Khanna. So explain--in this case, what did you think 
was so meaningful and innovative about telling the Patent 
Office that a dose that every doctor is prescribing already and 
that is on your marketing brochure, that that should be 
patented?
    Mr. Gonzalez. Well, no----
    Mr. Khanna. What was the innovation? What do you think you 
should be up for the Nobel Prize for? I mean, what was the 
innovation there?
    Mr. Gonzalez. Well, I don't know that I would agree with 
the premise of what you said. I am certainly not an expert on 
every patent that we have in the company. I will be happy to 
follow back up with you.
    Mr. Khanna. Do you see, Mr. Gonzalez, what is galling, just 
at an intuitive level? It is that the people who are actually 
inventing this stuff--it is a brilliant invention. It is 
staggering, you know, that Mr. Winter deserved the Nobel Prize. 
You know, I am not smart enough. No one is that smart to come 
up with it. But then you sit here claiming that you are the 
fountain of innovation, that you are benefiting from billions 
of dollars for innovation. You don't even know who the person 
is who invented your drug, and you are unable to explain what 
is so novel about what you are getting patented. That is why 
there is outrage. I mean, can you understand that, just at a 
human level?
    Chairwoman Maloney. The gentleman's time has expired and 
his point is well taken. Thank you.
    The gentleman from Texas, Mr. Sessions, is now recognized 
for five minutes.
    Mr. Sessions. Madam Chairwoman, thank you very much. I 
would like to pick up perhaps where the gentleman just left off 
and further this line of questioning. Does your drug work, sir?
    Mr. Gonzalez. The drug works very effectively. It is 
approved across ten different indications. The only molecule of 
its type to be able to achieve that.
    Mr. Sessions. Did you have to go through an FDA modeling of 
doing trials to get there?
    Mr. Gonzalez. Yes, hundreds of trials, clinical trials, 
including dosing trials which would have defined what dose 
worked in what indications.
    Mr. Sessions. Did this take any money? I heard it took 
time, but did it take money?
    Mr. Gonzalez. We invested $16 billion in Humira.
    Mr. Sessions. $16 billion. And when through the idea of 
this, did you have to purchase anything from the, quote, 
``inventor''?
    Mr. Gonzalez. We acquired the company that the inventor was 
originally working with.
    Mr. Sessions. OK. So you are trying to take a model, spend 
$16 billion, have it work, make it available. Now our 
chairwoman said earlier that the Federal Government was 
prohibited from negotiating the price, prohibited. I would like 
to disagree with that, but what does take place in negotiating 
a price that you have already sunk $16 billion in?
    Mr. Gonzalez. Actually, the Federal Government, on average, 
gets the highest discount of any channel on Humira. The average 
discount on Humira is 64 percent, to the Federal Government.
    Mr. Sessions. So you looked at $16 billion and you put that 
over a model. You had a modeling, the number of people you felt 
like would be available, the number of things that would 
happen, and then you had to stretch out $16 billion, and then 
gave the Federal Government this discount. Did they set the 
discount or did you?
    Mr. Gonzalez. In different channels they do it in different 
ways. But even in the Medicare Part D channel it is negotiated 
aggressively by the plans, on behalf of the Federal Government.
    Mr. Sessions. So it was negotiated and you said, OK, we'll 
give you a 64 percent reduction.
    Mr. Gonzalez. On average, that is the reduction.
    Mr. Sessions. On average. OK. If you had not done this, 
what would be the medical things that might be--I would call it 
a cost-benefit analysis, but what would the other answer in the 
marketplace be for people who would use this product if you 
were not there, and what is that general cost and outcome?
    Mr. Gonzalez. Well, there is a class of drugs that treats 
these types of diseases, so there are some alternatives that 
are available. One of the important things to remember in this 
class is patients are required, through their formulary, to 
fail lower-cost therapies before they get access to these 
therapies.
    Mr. Sessions. So really, whoever the way the thing works is 
they start one, they go to the next, they go to the next. 
Presumptively it would work for a certain percent. And then you 
would get down to the percent that it did not work so well. You 
are the last chance. You are the alternative when there is no B 
option. You become the A option.
    Mr. Gonzalez. When alternative, lower-cost therapies have 
failed, biologics are the type of therapy those patients end up 
on.
    Mr. Sessions. Now we saw, in the very beginning, the 
chairwoman very thoughtfully put several people up who 
indicated that they did need products that seemingly made their 
life better. Were they in reference to you?
    Mr. Gonzalez. Those patients were referring to our 
products. One of the things I would say is one of the things 
that we are very committed to in AbbVie is ensuring that there 
is a safety net in place to cover all patients who need our 
drugs, whether they can afford it or not. And we have a very 
extensive safety net in place, for uninsured, for Medicare Part 
D patients, for underinsured patients. And I say, as an 
example, an uninsured patient, we approve 99 percent of the 
applications we get, and an uninsured patient can get Humira 
for free, up to an income of $388,000. So it is quite generous.
    Mr. Sessions. I appreciate your time and thank you very 
much. Madam Chairman, I yield back my time.
    Chairwoman Maloney. Thank you. The gentleman from Illinois, 
Mr. Davidson, is recognized for five minutes.
    Mr. Davidson. Thank you, Madam Chairman, and let me just 
thank you for holding this very informative and important 
hearing.
    Mr. Gonzalez, let me appreciate the fact that AbbVie has 
such a strong presence in the state of Illinois, where I live 
and where I come from. And I also want to appreciate the 
tremendous scientific achievements as well as the efforts 
toward diversification and the work that you have done to 
assist in making sure that we were able to fight the 
coronavirus.
    But let me ask, a moment ago I heard you talk about the 
possibility of negotiating discounts, and, of course, I 
understand that pharmacy benefit managers are entities that 
negotiate the price of medication for insurance companies. Did 
I understand you to suggest that negotiation could be 
beneficial to insurance companies in terms of the prices that 
they would ultimately pay?
    Mr. Gonzalez. The way the system works is we compete for a 
formulary position, and as part of that negotiation we 
negotiate with the managed care organization, or the PBM, what 
discount or rebate we will provide to get on that formulary. So 
yes, there is a negotiation that occurs.
    Mr. Davidson. Would it be advantageous to the beneficiaries 
whose payments are made by governmental entities if 
negotiations took place for those groups of individuals?
    Mr. Gonzalez. I think that occurs, to a great extent, 
already, if I understand the question correctly.
    Mr. Davidson. It is my understanding that the government, 
the U.S. Government, CMS, that we are pretty much prohibited 
from negotiating drug prices. That has been my understanding.
    But let me just ask you, I understand that AbbVie applied 
for far more patents with countries outside the United States 
than inside, or at the Patent Office in the U.S. Is there a 
reason for that differential?
    Mr. Gonzalez. There are countries all around the world 
where you can apply for patents. They have different 
approaches. And I would say the U.S. is the most rigorous and 
thorough area of patents, and tends to be the area where much 
of the innovation is originally created.
    Mr. Davidson. Dr. Garthwaite, let me ask you, because the 
case has been made for me that we are paying far too much for 
pharmaceutical drugs. I would say that means me, lots of other 
people, you. But we are also paying more than our counterparts 
in other countries. And not to suggest that any other country 
has reached a level of perfection.
    Why do you think we are paying so much more than they are?
    Mr. Garthwaite. Well, I think they are paying less because 
we are paying more. Small European countries, I think, have a 
lot more freedom to choose to not worry about how their 
individual price will affect innovation incentives, because 
they are fairly small. They are kind of agonistic in this 
conversation. No pharmaceutical manufacturer is really thinking 
about how much they can earn in England when they are deciding 
to make drugs, but they think very carefully about how much 
they can earn in the United States. And so one of the downsides 
about being one of the largest global economies is that we have 
an outsized presence in the profits of a sector.
    That said, also they have different patent rules around 
that, and I think, you know, what we should do is we should 
think about sort of how we want think about reforming our 
patent rules in the United States. I think there is a role for 
government to do that. Patents are, after all, a grant from the 
government to try to balance access and innovation. And so, we 
should think about reforms, including sort of reforms to the 
incentives, as Mr. Amin mentioned, the incentives of the patent 
examiners themselves. I think that we should be focusing on the 
Patent and Trademark Office in some ways more than we are on 
the private firms.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Amin. May I just add a comment to this?
    Chairwoman Maloney. Who is speaking?
    Mr. Amin. Tahir Amin.
    Chairwoman Maloney. Very briefly. Very briefly.
    Mr. Amin. Yes. I would just say that, you know, having 
worked across 25 different countries on patent systems I would 
disagree that the U.S. patent system is the most rigorous. I 
think it is the easiest system to getting a patent. In fact, by 
some studies, one can never get a patent rejected in the United 
States, because you can keep refiling it over and over again 
until you get one. So, it is a war of attrition, and just to 
Craig Garthwaite's point, I agree that, you know, examiners are 
under an immense amount of pressure, and because of the 
incentive to keep granting we end up with more patents.
    So, I kind of disagree with the contention that Mr. 
Gonzalez said that the U.S. has the most rigorous patent 
system.
    Mr. Davidson. Thank you, Madam Chairman, and I yield back.
    Chairwoman Maloney. Thank you. The gentleman from 
Pennsylvania, Mr. Keller, is recognized for five minutes.
    Mr. Keller. Thank you, Madam Chair. The U.S. has long been 
a global leader in pharmaceutical innovation, and I thank you 
for holding this hearing. Getting generic drugs to market as 
quickly as possible remains a priority for this committee and 
will help to bring down the cost of prescription drugs.
    Professor Garthwaite, American companies have greatly 
contributed to the $182 billion invested globally by the 
private industry into pharmaceutical research and development 
initiatives, generating roughly 30 FDA-approved drugs annually. 
Can you explain the relationship between investment and 
incentives in the pharmaceutical space?
    Mr. Garthwaite. Yes. To develop a new product you have got 
to make a large, fixed sum in a risky investment. And so you 
are trying to make that investment with the idea that the 
potentially you will get intellectual property that would allow 
you to earn back sufficient revenues and expectation to justify 
that initial investment. That is the basic business tradeoff 
that we are thinking about here.
    And so firms are acutely aware of the potential market 
size. I would note, though, that that is firms around the 
world. While the United States does have a very strong 
biopharma sector, firms around the world respond to the profits 
generated in the United States. And so we have great 
biotechnology companies in Europe. We have an amazing emerging 
biotechnology for novel products coming out of Hong Kong and 
Shanghai. But all of it is driven by the same incentive, which 
is again that return on investment, and most of it is driven by 
the profits generated in the United States.
    Mr. Keller. How would price controls or forced negotiation 
as contained in H.R. 3 affect the price and availability of 
prescription drugs?
    Mr. Garthwaite. I mean, it would. I think the goal of H.R. 
3, and if you look at the CBO model is it would meaningfully 
reduce prices. The resulting knockdown above that would be a 
reduction in innovation. And we should have that debate as to 
what we think is going to be the acceptable level of tradeoff 
between access and innovation, or are there other ways, such as 
reforming our health insurance system to reduce onerous cost-
sharing that we can decrease some of the reduced access when 
prices are high and still provide large innovation incentives.
    I really would encourage the committee to look at this as 
not just a question of the price of the drug but a lot about 
the cost-sharing, particularly cost-sharing in government 
programs, which simply do not match the modern pharmaceutical 
market.
    Mr. Keller. Thank you for that. Another question, Mr. 
Garthwaite. Patents are critical for safeguarding intellectual 
property. However, the patent system can also add barriers to 
competition that would otherwise drive down drug prices. So do 
you have a suggestion on possible reforms to the patent system 
that would still incentivize innovation while also allowing for 
product variation?
    Mr. Garthwaite. So I think we should look directly at the 
patent system. As I mentioned before, there are organizational 
incentives around how we fund it. It could be that what we want 
to do is think about funding it, about the number of patents 
maybe that apply or some other PDUFA-like structure but applied 
to the patent system.
    I do think something that gets lost in the question here, 
though, is that we very much do want firms to invest resources 
for new uses for old drugs. These sort of secondary patents 
have been much maligned in this testimony. I am happy to see 
that a drug like Humira, that we have seen the number of 
indications that we have, we want to make sure that we maintain 
the incentives to get as much as we can out of the resources 
that society has spent to develop new products.
    And so I don't think we should go to some type of system 
where there is one patent for every drug. That is a naive view 
of modern drug development. But we should have a rigorous 
review at the Patent and Trademark Office about whether things 
truly represent novel and non-obvious innovations.
    Mr. Keller. Thank you. As we begin to once again have 
discussions about Speaker Pelosi's drug pricing reform bill, 
H.R. 3, I would caution my colleagues that more price controls 
and government overreach in the pharmaceutical market will only 
stand to make prescription drugs more difficult for access.
    I also look forward to discussing bipartisan pharmaceutical 
proposals such as the provisions in H.R. 19, the Lowest Cost, 
More Cures Act, to get generic drugs to market faster, improve 
competition, and ensure Americans have access to affordable 
medicine.
    Thank you, and I yield back.
    Mr. Amin. Chairwoman----
    Chairwoman Maloney. The gentlelady from Florida, Ms. 
Wasserman Schultz, is recognized for five minutes.
    Ms. Wasserman Schultz. Thank you, Madam Chair. AbbVie 
jointly markets its cancer drug, Imbruvica, with Janssen 
Biotech. Though the companies share decision-making authority 
and profits, AbbVie leads the drug's commercialization efforts 
in the United States.
    Mr. Gonzalez, yes or no. Does commercialization include 
setting pricing in the U.S.
    Mr. Gonzalez. It does, yes.
    Ms. Wasserman Schultz. OK. Thank you. As a breast cancer 
survivor, the exceptionally high cost of cancer drugs is an 
issue where the policy is very personal for me. I want to put 
up on the screen a graph showing how the list price of 
Imbruvica has changed over time.
    At its launch in 2013, Imbruvica was priced at about $91 
per tablet. As you can see, since just 2013, AbbVie has raised 
the price of the drug nine times. AbbVie took a 7.4 percent 
increase in each of the last two years, as millions of 
Americans were struggling financially because of the 
coronavirus pandemic. The current list price of Imbruvica is 
now at $165 per tablet, and an annual course of treatment is 
priced at anywhere from $181,000 to $242,000 per patient, 
depending on how many tablets a patient takes daily.
    Dr. Kesselheim, I would like your help dispelling two myths 
that pharmaceutical companies continually perpetuate about drug 
pricing. First, they insist, that no one actually pays the so-
called list price of a drug or directly feels the impact of 
that price.
    Dr. Kesselheim, very briefly, is that true?
    Dr. Kesselheim. That is not true. Actually, we just 
published an article led by my colleague, Dr. Rome, here in my 
group, showing that when list prices go up, patients who have 
high deductibles or other kinds of limited insurance can feel 
substantial increases in prices.
    Ms. Wasserman Schultz. And isn't it true that uninsured 
patients pay the list price, patients' out-of-pocket costs are 
tied to the list price? I mean, my familiarity, the whole 
notion of cost-shifting is that when you go to the hospital and 
you are a patient that doesn't have coverage, you are charged 
the full list price. That cost-shifting occurs because those 
uninsured patients are unable to pay the price, and then the 
costs go up for all of us, and that would include the price of 
prescription drugs. Am I correct?
    Dr. Kesselheim. Yes.
    Ms. Wasserman Schultz. OK. So drugs companies, very 
clearly, also claim that they are forced to raise prices 
because pharmacy benefit managers demand bigger and bigger 
rebates. They argue that while prices rise, their profits 
don't. But internal data obtained by the committee shows that 
the Imbruvica rebates AbbVie provided to Medicare and 
commercial plans from 2013 to 2018, range from just 4 percent 
to 11 percent. The data also showed that the annual net price 
of Imbruvica, the price of the drug after subtracting all 
rebates, discounts, and fees, rose by approximately 60 percent.
    Dr. Kesselheim, what does that demonstrate about whether 
rebates are driving AbbVie's price increases for Imbruvica?
    Dr. Kesselheim. Right. AbbVie's price increases for 
Imbruvica are being set by AbbVie itself, and the reason that 
rebates are so low in this market is because we don't allow the 
government to negotiate drug prices based on their value, and, 
in fact, allow drug companies to set prices wherever they want. 
And if a drug company is trying to meet the needs, the sort of 
expectations of its shareholders or something, about its 
revenues, then it is going to do what it can by increasing 
prices on currently available drugs as much as it can.
    Ms. Wasserman Schultz. Thank you. So, despite what Big 
Pharma wants you to believe, they bear responsibility for our 
current crisis of cancer drug affordability. No one should be 
unable to afford life-saving medication, but 42 percent of 
cancer patients deplete their entire net worth--I have talked 
with countless of them--within the first two years of 
treatment, in part due to high drug prices.
    We can have both innovative treatments and affordable 
prices, and we all deserve both. We shouldn't have to make the 
false choice. Congress should reject that false choice and act 
now to rein in the era of the greed of pharmaceutical 
companies. We have to make sure that if you are facing a life-
or-death condition that you are not faced with having to 
bankrupt yourself in order to be able to afford to stay alive.
    Thank you, Madam Chair, for the privilege of participating 
in this hearing, and I really commend your leadership in having 
it. I yield back.
    Chairwoman Maloney. The gentlelady yields back. The 
gentleman from Arizona, Mr. Biggs, is recognized for five 
minutes.
    Mr. Biggs. I thank the Chair and I thank the witnesses for 
being here today.
    What we see is that many folks have observed this around 
the world, but other nations are free-riding on American 
consumers, particularly in the pharmaceutical area. But if we 
jump from the frying pan into the fire, this is, as one writer 
said this, and I am quoting from him now, ``We would be jumping 
from the frying pan into the fire if we had European-type price 
controls that stifled innovation by pharmaceutical companies. 
Sure we would enjoy lower prices in the short run, but we would 
have fewer life-saving drugs in the future,'' and I close the 
quote.
    This past year, we have seen the remarkable, innovative 
ability of American companies. Operation Warp Speed allows for 
the American people to receive three COVID-19 vaccines in less 
than a year. This achievement could not have been accomplished 
with world-leading American companies.
    Mr. Garthwaite, what can Congress do to replicate the 
success of Operation Warp Speed for other diseases and cures?
    Mr. Garthwaite. So I think we should be careful not to 
overgeneralize from the success of Operation Warp Speed, which 
was really trying to address a very specific problem, where we 
have an exact type of product we want to develop, and we are 
going to allocate massive government capital to do that.
    I think that there are good and bad things about Operation 
Warp Speed. I do think that if we are going to give people 
public dollars, all the way up through clinical trials, like we 
did with Moderna, we should probably think more about some type 
of pricing clause, because that firm is not putting capital at 
risk, and so we should think more about those questions.
    But I really caution against the idea that we would 
generalize from the attempt to address one specific problem to 
some type of use of government money to try and solve all drug 
development. The capital markets are really good at allocation 
money toward the most potential success, scientifically. Most 
modern drugs companies are using those small firms to do that 
early stage research, and I think how many NIH take up that 
drug development mantle would really fundamentally change the 
nature of that agency.
    Mr. Biggs. That is a great lesson to learn. I appreciate 
that, because I think I agree with everything you just said 
with regard to capital formation, et cetera. Anything regarding 
the regulatory side of things that we should learn?
    Mr. Garthwaite. I think one thing that has been very nice 
about the FDA during this process is the degree to which they 
did try and stand up for rigorous review. I think there was a 
lot of worry at the start of Operation Warp Speed that there 
would be some type of political manipulation of the FDA or some 
pressure to not take science seriously to speed things up. And 
I do think the FDA has done a good job of trying to balance 
sort of access with regulatory review.
    We need to believe in the produces, and the FDA solves an 
important asymmetric information problem where they validate 
the success of these products. I know we can quibble about how 
long certain reviews took, and people wanted them to be 
shorter. But I do think it is very good to see the FDA 
maintaining its place as a place for rigorous review.
    Mr. Biggs. Mr. Gonzalez, could you explain how price 
controls might prevent companies
    [inaudible].
    Mr. Gonzalez. I think if you institute price controls or 
reference pricing you are going to drive down the amount of 
revenue going forward, and that is going to reduce the return 
on investment that you have in R&D. It was clearly laid out, in 
the CBO document, and I think it is accurate in the way it 
described it. So I think you would be trading off a short-term 
benefit for a long-term problem.
    Mr. Biggs. And so, Mr. Gonzalez, AbbVie has been able to 
grow Humira into one of the world's best-selling drugs, 
bringing in over $136 billion since it went to market in 2003. 
Can you explain to us how that money has been reinvested at 
AbbVie into development of additional medications?
    Mr. Gonzalez. Absolutely. I mean, I think if you look at 
products like Humira, as I said before, the on-market products 
pay for the R&D of the future. We have invested $48 billion in 
R&D since 2013, and out of that investment we have created a 
highly effective cure for HCD, we have created two cancer 
compounds that have improved survival rates in blood cancers 
significant, and now we have now created two immunology assets 
that have demonstrated superiority to Humira, and they are in 
the process of being launched in the marketplace. All of those 
things help patients tremendously, and it is that on-market 
product revenue that pays for R&D going forward. The system 
can't work without that.
    Mr. Biggs. Thank you both. I appreciate the time, Madam 
Chair, and I yield back.
    Chairwoman Maloney. The gentleman yields back. The chair 
now recognizes one of the authors of H.R. 3, the gentleman from 
Vermont, Mr. Welch, who is now recognized for five minutes.
    Mr. Welch. Thank you, Madam Chair. Mr. Gonzalez, you have a 
business model, as does all pharma, that starts with patent 
protection provided by the Federal Government. Is that correct?
    Mr. Gonzalez. That is correct.
    Mr. Welch. And that is supposed to be a limited time, and 
you do everything in your power to extend it beyond the 
original grant. Is that correct?
    Mr. Gonzalez. We develop innovation, and if we believe that 
innovation is meaningful and worth enough, we----
    Mr. Welch. Well, the answer to that is yes, right? You did 
a memo when you were Executive Vice President, that was about 
10 years ago, a little less, talking about, quote, ``product 
enhancements,'' and those included things like changing the 
size of the needle. Correct?
    Mr. Gonzalez. That is correct.
    Mr. Welch. And you do constant analysis internally within 
the company to anticipate competition that may result in lower 
prices, or price competition. Correct?
    Mr. Gonzalez. What we do is we constantly look for ways 
that we can innovate a product to be able to protect and grow 
its position by making it a better product for patients.
    Mr. Welch. And what that means is extending patent 
protection and maintaining pricing power through the monopoly 
that a patent confers. Is that correct?
    Mr. Gonzalez. Yes, it can result in that, yes.
    Mr. Welch. All right. And when biosimilar competition was 
introduced in Europe, the price of your product, Humira, went 
down by 80 percent. Is that correct?
    Mr. Gonzalez. The average reduction in revenue is about 50 
percent--48, I believe is the last number.
    Mr. Welch. So, the point here is competition works. 
Correct?
    Mr. Gonzalez. That is correct.
    Mr. Welch. And your pay, executive pay, is related, and has 
been for a period of time, to increasing revenues and hitting 
revenue targets. Is that correct?
    Mr. Gonzalez. We have a plan for what we believe our 
revenues are going to be in the following year----
    Mr. Welch. Right.
    Mr. Gonzalez [continuing]. And that is
    [inaudible] yes.
    Mr. Welch. The revenue is affected by the amount you sell 
and the price at which you sell it. Correct?
    Mr. Gonzalez. It is affected by that and then the cost, 
that you obviously incur in the business, such as increases in 
R&D.
    Mr. Welch. Well, let's just go through this. Immediately 
after that incentive plan came into effect, there were three 
major price increases, about 30 percent in one year for Humira. 
Is that correct? That is according to the documents that you 
provided to this committee.
    Mr. Gonzalez. If I look at AbbVie's price from 2017 
forward, our net price was negative.
    Mr. Welch. 2013 is when this went into effect. The records 
you provided to this committee indicate that the compensation 
of the top executives increased. And, by the way, your income 
last year, or your compensation, was about $24 million?
    Mr. Gonzalez. That is correct.
    Mr. Welch. And between 2013 and 2020, it was $170 million?
    Mr. Gonzalez. I would have to add it, but let's----
    Mr. Welch. Well, it is a big number. And compensation for 
all of the top executives was about four hundred and, what, 
about 80 million dollars? Is that correct?
    Mr. Gonzalez. Probably averaged about $60 million a year 
for the top five executives.
    Mr. Welch. All right. So, the bottom line here is that you 
had a system within AbbVie where executive compensation was 
tied to hitting revenue targets. Revenue targets were enhanced 
by increasing prices and sales. Correct?
    Mr. Gonzalez. Congressman, I don't agree with that. If you 
want to talk about a period of 2013 forward, then what I would 
tell you is net price for AbbVie, 2013 forward----
    Mr. Welch. Right, but let me reclaim my time. And the way 
you were able to do that is, one, reaching agreements with 
competitors that they didn't bring their product out; No. 2, 
shadow pricing with Amgen, with respect to their product, 
Enbrel; No. 3, patent thickets, filing for over 150 patents 
here when you only did for six in Europe; and in so-called 
enhancements, which were things that made virtually no 
difference to the patient, other than that they had to pay more 
to get a smaller needle.
    So the business model here starts with the government 
providing a patent, the government providing payers, through 
Medicare and Medicaid, and then what I can see, rampant abuse 
on the part of your company to essentially extend that monopoly 
pricing power and abuse at the expense of patients. It has got 
to end. It has got to end. I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentleman from Georgia, Mr. Clyde, is now recognized for five 
minutes. Mr. Clyde.
    Mr. Clyde. Thank you, Madam Chairwoman, for holding this 
important hearing today.
    In the four-plus months that I have held office, one of the 
top issues to repeatedly arise in many of my meetings with 
constituents in Georgia's Ninth congressional District is the 
high cost of prescription drugs, many of which are lifesaving 
medicines. This is an issue that I think most all of us sitting 
on the committee have the desire to address. I strongly believe 
that we should be working to ensure patients have more choices 
when it comes to accessing lifesaving medications.
    However, in achieving this goal, we must be very wary of 
any effort that looks to stifle innovation or to set prices, 
such as in the Democrats' proposed bill, H.R. 3, as the 
solution it puts forward would be detrimental to the efforts to 
lower costs and increase choices. Not only would the woes of 
H.R. 3 be felt by the big manufacturers, but I believe they 
would be felt by the small businesses and startups as well, and 
I am reasonably confident that would be the end result, because 
as a small businessman by trade, I fully understand how 
stifling it is to be strong-armed by Federal bureaucrats.
    So I am determined to look for solutions that work, not 
only to bring transparency to the convoluted drug pricing 
space, but also to lower costs and to increase choices for 
patients.
    So I have got a couple of questions here. My first question 
is for Mr. Gonzalez. Is AbbVie engaged in any early stage 
partnerships with smaller biotech companies--and I am not 
looking for names or anything like that, of the companies--and 
if you are, can you please elaborate a bit on how government 
price-setting, like what we see in H.R. 3, how government 
price-setting might impact your investments in those companies 
and those partnerships, sir?
    Mr. Gonzalez. We invest significantly in small biotech 
companies in partnership arrangements or other kinds of pro-
licensing arrangements. I think the fundamental issue with 
something like price controls is it would take the riskiest 
area and it would make you much more hesitant to invest in 
those areas, but yet those are the areas that have the greatest 
opportunity to improve society, areas like new treatments for 
Alzheimer's, or treatments for Parkinson's disease, or better 
treatments for some of the solid tumors and cancer that we 
haven't been able to make significant improvements.
    And so the tradeoff you are going to make is you are going 
to take these very high-risk areas and you are not going to 
invest as aggressively in there, because your risk is so high, 
but you can't get the return going forward. I think that is the 
significant tradeoff that we are going to have to deal with if 
we were to implement that kind of an approach.
    Mr. Clyde. OK. Thank you very much. I appreciate that. My 
next question is for Mr. Garthwaite. In your submitted 
testimony, you discussed the importance of, and I quote, 
``inefficient value-destroying policies.'' Would you consider 
the Biden administration's push to waive IP protections from 
COVID vaccines as a value-destroying policy, and if yes, could 
you elaborate a little bit, please?
    Mr. Garthwaite. I have really strong concerns about waiving 
IP, and particularly waiving IP when we believe that products 
generate so much value that we need to make them more 
accessible to the world.
    I think we need to find ways to increase manufacturing 
capacity, and I we need to find ways to give vaccines to the 
rest of the world, and I think right now the incentives of 
Pfizer or Moderna, given their ability to sell this vaccine to 
the world, are aligned well to try and increase that 
manufacturing capacity.
    The thing I worry about is not the current pandemic. I 
worry about the next pandemic. In particular, I worry about one 
that is going to require perhaps a small molecule treatment or 
therapeutic as opposed to a vaccine, where firms are going to 
be very hesitant to make the investments to jump into those 
markets, if what is going to ultimately happen is that they are 
going to have the intellectual property that they create 
transferred to other parties.
    And so I really believe that instead of waiving IP, the 
U.S. Government can increase the incentives to bring 
vaccinations to the rest of the world, by either transferring 
vaccines that we currently have in storage or committing to pay 
high prices, even for vaccines throughout the developing world 
coming from the United States. It would be in our financial 
interest to pay for such vaccines.
    Mr. Clyde. OK. Thank you very much. I like that response. I 
think it is very dangerous that we would open the door to 
allowing China to not only steal years of knowledge and 
investments that these companies have made in mRNA technologies 
and production capabilities, but then to turn around and 
effectively assist them to profit off of it too.
    With this concern in mind, and to add to what my good 
friend, Congressman Hice, has said earlier about waiving IP 
protections, I have added my name to a letter led by my good 
friend and fellow colleagues from Georgia, Congressman Buddy 
Carter, that expresses how waiving such IP protections is 
dangerous and not an efficient means to achieving the White 
House's goal of getting vaccines to those around the globe in a 
timely manner. As expressed in the letter, I think that 
focusing on the transportation chain would better achieve the 
objective and simultaneously preserve U.S. companies' 
intellectual property rights.
    And with that, Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back, and the 
gentlewoman from California, Ms. Porter, is recognized for five 
minutes.
    Ms. Porter. Thank you. Mr. Gonzalez, you are the CEO of 
AbbVie, which makes the cancer drug Imbruvica. Do you know what 
the annual price of Imbruvica was for a patient taking the 
standard three pills per day in 2013?
    Mr. Gonzalez. One-hundred-thirty thousand dollars.
    Ms. Porter. OK. We had $99,766. What about today for those 
same three pills?
    Mr. Gonzalez. I think it is $169,000.
    Ms. Porter. We have $181,000, but we can agree that there 
was a significant increase. Roughly, in a matter of eight 
years, AbbVie more than doubled the price.
    Now, Mr. Gonzalez, how much money did AbbVie put directly 
into the research and development costs of Imbruvica before it 
hit the market in 2013?
    Mr. Gonzalez. We acquired Imbruvica when it was launched, 
so it would have been the company that we acquired----
    Ms. Porter. So, AbbVie--reclaiming my time--so AbbVie 
itself didn't spend any money to create Imbruvica. It was 
invented by a smaller company, Pharmacyclics, which you later 
acquired. Correct?
    Mr. Gonzalez. We paid $21 billion for the company, correct.
    Ms. Porter. It was expensive to acquire them. So, you paid 
fair market value for Pharmacyclics, but AbbVie then doubled 
the price, presumably justified by its $2.45 billion investment 
in R&D. Are there fewer side effects for patients now than 
there were in 2013?
    Mr. Gonzalez. Well, we developed significant indications 
and expansions and other disease states----
    Ms. Porter. Are there fewer side effects, sir?
    Mr. Gonzalez. No. It has the same side effect profile.
    Ms. Porter. OK. Mr. Gonzalez, do people need less of this 
medicine, Imbruvica, to treat lymphoma now?
    Mr. Gonzalez. No.
    Ms. Porter. So, AbbVie took zero risk to develop this drug. 
You bought it approved for the market, knowing it would be 
profitable. You hiked the price to pay for R&D, but you haven't 
made the drug any better, even as you doubled the cost.
    I wrote an entire report on what is essentially the 
Imbruvica story--Big Pharma gobbles up a small, innovative 
company, does nothing to improve the drug, but jacks up the 
price.
    Now you told us that you spent $2.54 billion for R&D for 
Imbruvica, even though the drug didn't get any better. Really, 
it was all for these innovations and indications, which are 
designed to keep competitors off the market and find new sales 
opportunities. So, I want to look at what other money AbbVie 
spent doing its business. You filed 165 patents for Imbruvica. 
You filed patents for Humira, other drugs, to keep competitors 
off the market. How much did you spend on litigation and 
settlements from 2013 to 2018?
    Mr. Gonzalez. Congresswoman, let me correct one thing that 
I think you just said. It is not true that we didn't invest in 
additional indications and additional diseases. As an example, 
we received approval after the development work of graph versus 
host disease. We also----
    Ms. Porter. Reclaiming my time. Mr. Gonzalez, how much did 
AbbVie spend on litigation and settlements from 2013 to 2018?
    Mr. Gonzalez. I don't have that number offhand. I will be 
happy to give it to you.
    Ms. Porter. OK. $1.6 billion. $2.45 billion on R&D, $1.6 
billion in litigation and settlements. What about marketing and 
advertising? How much does AbbVie spend on that?
    Mr. Gonzalez. Marketing and advertising, we spend about $4 
billion a year.
    Ms. Porter. Yep, $4.71 billion. How about executive 
compensation, 2013 to 2018?
    Mr. Gonzalez. 2013 to 2018, it is probably, on average, 
about $60 million a year.
    Ms. Porter. Try $334 million on for size. Now how much did 
AbbVie spend on stock buybacks and dividends to enrich your 
shareholders from 2013 to 2018?
    Mr. Gonzalez. Stock buybacks, if you actually look at just 
pure stock buybacks it would be about $13 billion.
    Ms. Porter. Stock buybacks and dividends is the question, 
sir.
    Mr. Gonzalez. Dividends, I would have to come back with a 
number for that over that period of time.
    Ms. Porter. $50 billion. So, Mr. Gonzalez, you are spending 
all this money to make sure you make money, rather than 
spending money to invest in, develop drugs, and help patients 
with affordable, life-saving drugs. You lie to patients when 
you charge them twice as much for an unimproved drug, and then 
you lie to policymakers when you tell us that R&D justifies 
those price increases.
    The Big Pharma fairy tale is one of groundbreaking R&D that 
justifies astronomical prices, but the pharma reality is that 
you spend most of your company's money, making money, for 
yourself and your shareholders. And the fact that you are not 
honest about this, with patients and with policymakers, that 
you are feeding us lies that we must pay astronomical prices to 
get innovative treatments is false. The American people, the 
patients, deserve so much better.
    I yield back.
    Chairwoman Maloney. The gentlelady's time has expired. The 
gentleman from Kansas, Mr. LaTurner, is recognized for five 
minutes.
    Mr. LaTurner. Madam Chairwoman, I thank you for holding 
this hearing which affords this committee the opportunity to 
help the American people understand why the U.S. is the world 
leader in medical innovation, why that leadership position in 
the world helps save countless lives during this pandemic, and 
continues to save lives every single day, and what advances the 
Trump administration and House Republicans have made in recent 
years to help bring down the high price of prescription drugs, 
speed generics to market, and reduce out-of-pocket costs.
    While everyone on this committee can agree that Americans 
pay too much on certain prescription drugs, and they do, 
Democrats have been unwilling to work with Republicans on 
bipartisan solutions to help both bring down the high cost of 
drugs while simultaneously preserving U.S. medical innovation, 
the benefits of which have been on full display this past year 
like never before.
    I hope this year will be different, with both Republicans 
and Democrats willing to work across the aisle and to do what 
is achievable--lowering the cost of some high-priced drugs 
while maintaining choice for Americans, and not harming robust 
R&D funding, which has spurred groundbreaking innovation in 
both vaccines and therapies for COVID-19.
    Just like our national defense, the only safe place is 
first place, when it comes to our Nation's health care, 
especially as it pertains to the creation of vaccines and 
medical therapies. And this has never been truer than during 
this pandemic. In 2018, it is estimated that pharmaceutical 
companies spent $169 billion globally on R&D, and an estimated 
$182 billion in 2019. CBO has noted that R&D has increased 
among pharma firms just as it has to the industry as a whole, 
reaching 25 percent in 2017.
    It is important to point out that the average spending on 
R&D across all industries is less than three percent, compared 
to 25 percent for the pharmaceutical industry. Why is this 
important? With less investment comes less innovation, which, 
in turn, leads to fewer new drugs. Europe used to lead the 
world in drug innovation, over 30 years ago, but government-
imposed price controls led to less foreign R&D investment, 
which, in turn, led to U.S. worldwide leadership in the 
development of innovative life-saving treatments and cures, 
including three current COVID vaccines, with more on the way.
    According to a White House Council of Economic Advisors 
report, under the Democratic legislative approach, H.R. 3, to 
price controls and a punishing excise tax on American 
medicines, Americans would be denied access to dozens of life-
saving medicines over a 10-year period. But the result would be 
fewer saved lives and a reduction in the life expectancy for 
the average American. Unlike developed nations and Europe, such 
as the UK, where the citizens had access to only 60 percent of 
new medicines, Americans currently enjoy access to almost all 
new medical innovations and cures. This isn't by accident. And 
while I believe there is more than can and must be done in our 
effort to lower drug prices, I am confident that my 
constituents back home in Kansas are not interested in reducing 
choice and giving up access to life-saving drugs and therapies, 
especially for diseases such as cancer and hepatitis C.
    I encourage Congress to focus on legislation that is both 
doable and helpful to the American people, and not jeopardize 
our free market system, which preserves innovation while 
ensuring access to the world's largest choice of affordable 
medications.
    Now to questions. Mr. Gonzalez, I can't think of a time 
when the value of public-private partnerships in drug 
development has more evident to the general public. Even Dr. 
Fauci has said he can't think of a vaccine, even one in which 
the Federal Government has provided substantial resources, that 
was brought to the goal line without private industry. Yet some 
of the proposals being discussed today would substantially 
change the parameters of current IP protections in the U.S.
    Is it wise to send innovators the clear message that the 
larger the health crisis, the less we will protect your IP?
    Mr. Gonzalez. No, it is not. IP is fundamental to this 
industry.
    Mr. LaTurner. I appreciate that very much. Some of my 
Democrat friends, again for Mr. Gonzalez, believe the Federal 
Government should take over the pharmaceutical sector. While I 
strongly agree the price of drugs are too high in some 
instances and that Congress must do more in this area, can you 
speak to the role of the private capital and U.S. drug 
innovations, just more broadly?
    Mr. Gonzalez. Well, obviously we put a tremendous amount of 
capital at risk to be able to develop new, innovative medicines 
going forward, and that is built around the premise that you 
will have an opportunity to recoup that investment and continue 
to invest further in R&D to create additional cures as time 
goes on. That is fundamental to this industry, and I think we 
have seen the benefit of it. We have made tremendous progress 
in treating cancer, in curing HCV, with COVID vaccines. I mean, 
we see tremendous progress in this area, and I think if we put 
price controls in place that will damage the R&D in this 
industry.
    Mr. LaTurner. Thank you. I appreciate it, Mr. Gonzalez, and 
all the conferees. I yield back, Madam Chairwoman.
    Chairwoman Maloney. The gentleman yields back. The 
gentlelady from California, Ms. Speier, is recognized for five 
minutes.
    Ms. Speier. Thank you, Madam Chair. Let me, at the outset, 
make note of the fact that our colleagues on the Republican 
side have talked about this phenomenon of getting three 
vaccines in less than a year. It is a phenomenon, but it has 
everything to do with the fact that the Federal Government 
negotiated the price of these drugs. So, let's not forget that 
in the course of this discussion.
    I want to say, at the outset, that AbbVie is a
    [inaudible] my district, but I also feel a responsibility 
for their practices. And I want to make sure we continue to 
have innovation and medical advancement, but I also want to 
protect the consumers.
    Humira has been on the market for 18 years, but it is still 
under patent protection. Mr. Gonzalez, I want to understand how 
AbbVie has managed to avoid competition for so long. First I 
would like to put up Exhibit 19, a presentation you delivered 
to investors in October 2015. As you look there, it shows that 
the actual ingredient for Humira expired on December 31, 2016. 
Am I reading that correctly?
    Mr. Gonzalez. That is correct in the U.S.
    Ms. Speier. Had that been your only Humira patent, U.S. 
patients could have accessed lower-priced versions of Humira in 
2017. As this slide shows, however, AbbVie filed for scores of 
additional patents on Humira, 22 patents on method or 
treatment, 14 patents on formulation, 24 patents on 
manufacturing, and 15 ``other'' patents. AbbVie successfully 
created what the title of the slide suggests, an entire estate 
of patent protection.
    Now I understand your obligations is to your shareholders 
and not to the consumers, Mr. Gonzalez. But tell me, how much 
did you pay in taxes last year?
    Mr. Gonzalez. We paid about $1 billion or $6.4 billion 
since tax reform.
    Ms. Speier. So $1 billion in taxes last year. And your 
revenues that you generated last year were how much?
    Mr. Gonzalez. Approximately--well, taxable revenues over 
that same period of time, an easy way to think about it would 
be the $6.4 billion, we had about $21 billion of taxable 
revenues over that period of time.
    Ms. Speier. $21 billion. So that suggests you paid maybe 10 
percent in taxes, if that.
    But going back to your patent situation, you have now 256 
patents for Humira, and they will not expire for a total 34 
years since the launch. My question to Mr. Amin, you are the 
patent expert. Did AbbVie really need 256 separate and new 
patents? Did they have 256 new inventions related to Humira?
    Mr. Amin. Thank you, Congresswoman. Well, it is actually 
257 applications of which, by our count, is 130 that have been 
granted. I believe there are probably more out there, but 
obfuscated in trying to actually find them. If you look at the 
initial patents, this roadmap
    [inaudible], the new indications that are subsequently 
being patented later on in the lifecycle of the drug were 
already highlighted and protected in the initial patents that 
went off, expiring in 2016.
    So, what we see is this system that the U.S. patent system 
encourages, is to these middle increments that the companies 
do. And this is not just AbbVie. This is every company, in 
order to extend their life and protection so that they can have 
another 8, 9, 10 years. We see it with Imbruvica, and we will 
probably see more patents that are being filed as Imbruvica is 
actually entering its sort of eighth year on the market.
    So, they don't need all these patents, but it is a great 
strategy to keep competition at bay.
    Ms. Speier. So if you were to advise us on how we could 
just focus, narrowly, on patent abuse, could you just give me, 
in 39 seconds, what kinds of recommendations you would make to 
us?
    Mr. Amin. I would raise the bar for what it means to get a 
patent, so that we can actually really incentivize real 
discoveries and treatment. Because companies also get FDA 
exclusivity just for these little tweaks, an indication. But 
they are already getting awarded for that. The idea that they 
are going to stifle innovation is wrong.
    So, my main call is that we should actually raise the bar 
in what would take to get a patent, and we have to improve 
examination
    [inaudible].
    Ms. Speier. All right. Thank you very much. Madam Chair in 
my two seconds, just in my calculation, I guess what AbbVie 
paid was five percent in taxes last year, when most of us were 
paying 37 or 38 percent. I yield back.
    Chairwoman Maloney. The gentlelady yields back. I now 
recognize the gentlewoman from New Mexico, Ms. Herrell. She is 
now recognized for five minutes.
    Ms. Herrell. Thank you, Madam Chair, and thank you for 
having this hearing as well, and thank you to our panel. I just 
have a couple of questions for clarifying, and I will start 
with Mr. Gonzalez. I just wanted to ask you; how much 
involvement has the government had currently in price setting 
for your prescription drugs?
    Mr. Gonzalez. On behalf of the Medicare Part D plan that is 
negotiated by the plans, the insurance plans or managed care 
plans, on behalf of the government. Then the government 
obviously negotiates directly in areas like VA, DoD, TRICARE.
    Ms. Herrell. So, Mr. Gonzalez, then would that have a 
direct impact on what the consumers are paying for their 
prescriptions?
    Mr. Gonzalez. I am sorry. I didn't understand the question, 
Congresswoman.
    Ms. Herrell. Would that have a direct impact on what 
consumers are paying for their prescription drugs?
    Mr. Gonzalez. Negotiation is your question?
    Ms. Herrell. Yes. Would those have a direct impact on what 
we are paying for our prescriptions?
    Mr. Gonzalez. As I indicated, the government today does 
negotiate, and if you look at it, as an example, for Humira, 
the average discount for Humira across all the government 
channels is 64 percent. It is the highest discount by a 
significant margin, compared to any other part of the channel.
    Ms. Herrell. Right. So once the negotiations are done, that 
does impact the consumers' prices.
    Mr. Gonzalez. No, I think that is one of the challenges of 
the discussion today. The Medicare Part D system is relatively 
insensitive to the price of the drug.
    Ms. Herrell. So, Mr. Gonzalez, let me put it this way. 
Would it be better or worse for the consumer if there was less 
government involved in the price negotiation?
    Mr. Gonzalez. What I would say is it would be better for 
the Medicare Part D consumer or patient, in this case, if we 
work together to be able to restructure the out-of-pocket costs 
for those patients, because lowering the price alone will not 
allow you to get to a point where these patients can afford 
their medicines.
    Ms. Herrell. OK. Thank you. And Mr. Garthwaite, I just 
wanted to ask you a question. The Congressional Budget Office 
estimates that 38 fewer cures would be developed in the next 20 
years if H.R. 3 became law. How does H.R. 3 stifle innovation?
    Mr. Garthwaite. So the CBO modeling, we could spend a long 
time if you wanted, but you probably don't, talking about sort 
of positives and benefits of that model. But they are relating 
the fact that when you see this decrease in revenue, and 
expectation, firms like Mr. Gonzalez's and AbbVie are going to 
optimally reduce their investment in R&D to match the size of 
the potential market that is going to exist. We have lots of 
economic evidence that suggest the direction and the magnitude 
of that effect. A really big decrease in prices, like those 
proposed by H.R. 3, could have a fundamental effect on 
innovation, really depending upon how much prices are going to 
go down from that.
    I know earlier that Representative Wasserman Schultz wanted 
to say that, you know, we have this ability to both, you know, 
cut prices and keep innovation at the same level, and I think 
that is really more hope than science. I think that the 
evidence is clear we will see a decrease in innovation, and 
instead of promising to people we will get the same of 
innovation, we should have an honest debate about how many 
drugs we are willing to give up if we are going to see prices 
go down. That would be a much more productive and a much more 
honest cost than these simple political promises.
    Ms. Herrell. Right. So then do you feel that under the 
Trump administration, headway was being made to lower 
prescription drug costs and help the availability or 
accessibility?
    Mr. Garthwaite. I can't think of meaningful efforts that 
actually the Trump administration put into place that would 
have done that.
    Ms. Herrell. And so at the end of the day, with free 
markets, with collaboration, with both industry, government, 
and consumers, we can find a way to maybe revisit the standard 
Medicaid and Medicare Part D and help push the price down to 
consumers?
    Mr. Garthwaite. I certainly think--I mean Medicaid, the 
price for consumers is not an issue, but Medicare Part D is 
certainly an insurance program that is crying out for reform. 
It creates the incentives to raise prices. It creates the 
incentives to generate more rebates so you can lower premiums 
for healthy customers, and it really takes advantage of its 
customers that require expensive medications. And I strongly 
encourage Congress to look at reforms in that sector.
    Ms. Herrell. OK. Just very quickly, Mr. Gonzalez, earlier 
you were asked about the 30 percent increases in that 10-month 
time period from March 2019 to January 2020. Can you help us 
understand why the significant increase?
    Mr. Gonzalez. Well, over that specific timeframe, I can't 
specifically talk about that, but what I would tell you is 
there are two drivers to this. And as I said a moment ago, if I 
look at the overall impact of net price on AbbVie's business 
since 2013, it is very, very modest. It is 0.3 percent. If I 
look at even shorter periods of time, just in the U.S., as an 
example, the net price since 2017, in the U.S. only, it was 1.8 
percent. So price is not contributing significantly to the 
overall performance of the company.
    Now, many different factors drive the price. I would say 
increasing rebates plays a significant role. Rebates have 
increased significantly over that period of time.
    Ms. Herrell. Thank you. I yield back. Thank you, Madam 
Chair.
    Chairwoman Maloney. The gentlelady yields back. The 
gentlewoman from Missouri, Ms. Bush, is now recognized for five 
minutes.
    Ms. Bush. Thank you, Madam Chair, for convening this 
important hearing.
    As a nurse, I repeatedly saw the devastating harms that 
outrageously high prescription drug prices had on my patients. 
I saw our health care system prioritize their profits over my 
patients. I saw drug manufacturers, like AbbVie, line their 
pockets with cash while my patients suffered. We can't continue 
to let Big Pharma keep getting rich on life-saving medicines 
that people need to survive. And we are talking about survival 
of humans.
    Humira is currently the top-selling drug in the United 
States and the world. In 2020, Humira's U.S. net revenues were 
roughly double that of the second-highest-selling drug in the 
United States, which is Merck's cancer drug, Keytruda.
    Mr. Gonzalez, what share of your company's overall sales 
revenues comes from Humira?
    Mr. Gonzalez. About 40 percent now.
    Ms. Bush. 40 percent now. OK. Thank you. According to an 
article published earlier year in the journal Nature, Humira 
accounts for nearly 60 percent of AbbVie's sales, what is 
documented there. Humira has delivered your company over $170 
billion in worldwide net revenue since launching in 2003. Two-
thirds of that revenue, or $107 billion, have come from the 
U.S. market alone, even though Humira is the top-selling drug 
in the world, due in large part to AbbVie's price increases for 
Humira. A study of prices from 2017, found that in the U.S. 
Humira is three times more expensive than the drug in Germany, 
and four times more expensive than in Switzerland.
    Mr. Gonzalez, is there any difference between the brand 
drug here versus in different countries?
    Mr. Gonzalez. There is not a significant difference. They 
are manufactured in different kinds of facilities. A U.S. drug 
would be manufactured in an FDA-regulated facility, and a 
European drug may have been manufactured in a different 
facility that was not FDA regulated. But the general drug is 
the same.
    Ms. Bush. The general drug is the same. So the difference, 
if it matters, is what facility manufactured it that changes 
the price up three, four times.
    Mr. Gonzalez. No. I am sorry. I didn't mean for you to 
conclude that.
    Ms. Bush. OK.
    Mr. Gonzalez. What causes the differences in price is 
essentially socialized health care systems mandate what price 
you are allowed to sell the drug at, and as a manufacturer, you 
only have two choices. You either accept that price or you deny 
the population of that country the benefits of your medicine. 
And that is an impossible choice. Can you imagine a cancer 
drug, not providing the population of a country, that drug, 
because you don't like the price?
    But that is the fundamental challenge with socialized 
medicine systems. And that does force the U.S. to pay far more 
of the innovation costs of our industry. That is a reality.
    Ms. Bush. So that is what it is. We are picking up the 
slack. I just feel like if you can sell the same exact drug 
elsewhere for a fraction of the price there is no reason that 
people should be forced to pay high prices here, such high 
prices.
    But, you know, let me put up a graph on the screen, using 
data from AbbVie's SEC filing. This graph shows Humira's annual 
U.S. net revenue from 2003 to today. As the graph shows, each 
year AbbVie set a new record--each year, a new record for 
Humira revenue in the United States. The prices are staggering. 
On my own staff we have someone who used Humira for 6 years. 
His medications would have cost nearly $1 million--for six 
years--if not for his insurance plan, and his family would have 
repeatedly gone bankrupt trying to keep them stable, because of 
your predatory pricing scheme, had he not been insured. The 
story is the same for AbbVie's other blockbusting drug, 
Imbruvica, which is jointly markets with Janssen Biotech.
    I would like to show another graph, showing the U.S. net 
revenue for Imbruvica. Since 2013, AbbVie and Janssen have 
together generated $16 billion in net revenue from Imbruvica. 
More than one-quarter of this amount, or $4.3 billion, came 
from sales in 2020 alone. During that period, AbbVie raised the 
price of the drug nine times--one, two, three, four, five, six, 
seven, eight, nine times.
    Mr. Gonzalez, has the drug's efficacy dramatically improved 
nine times? If you could just yes or no answer that question 
for me.
    Mr. Gonzalez. The drug is basically the same drug.
    Ms. Bush. Thank you. We all want to incentivize the 
development of new medicines, we do, but there is a difference 
between turning a profit and profiteering off of patients and 
families all over the world.
    Mr. Gonzalez, last question. Will you commit to lowering 
the price of Humira and Imbruvica in the United States? This is 
just a yes or no.
    Mr. Gonzalez. No, I can't commit to that. But if you will 
allow me one more minute. I think we were aligned in that we 
want to be part of the solution to lower costs, out-of-pocket 
costs, for patients. And what I would tell you is when I look 
at Medicare Part D, I will use Imbruvica as an example. To make 
Imbruvica affordable to patients on Medicare Part D, it is 
literally 50 times more out-of-pocket cost on Medicare Part D 
than any other insurance vehicle. To make it affordable under 
the current structure of Part D you would have to lower the 
price of Imbruvica by 98 percent--98 percent to make the out-
of-pocket affordable for a patient.
    What that tells you is the structure of Part D's out-of-
pocket is not built for these kinds of medicines.
    Chairwoman Maloney. The gentlelady's time has expired. The 
gentleman from South Carolina, Mr. Norman, is now recognized 
for five minutes.
    Mr. Norman. Thank you, Madam Chairman. Mr. Garthwaite, you 
know, pharmaceutical companies are paid based on a percentage 
of the list price. That means your middleman, your 
distributors, all of them make more money at the patient's 
expense. You know, insurance is supposed to help existing 
patients who are buying drugs, such as insulin, which has been 
around since the 1950's.
    What common-sense solutions should we, as Members of 
Congress, do to try to bring down this cost?
    Mr. Garthwaite. So I would encourage you to look at 
regulations around cost-sharing that require that it is based 
more on the net or the post-rebate price as opposed to just the 
list price.
    I do think you are right that what we end up having is that 
when individuals purchase expensive medicines, which is again 
in the Part D program, it appears that part of the motivation 
of the plans is to generate high cost-sharing payments that 
they then don't necessarily capture as profits themselves or as 
the PBMs, but they use the lower premiums for the rest of the 
market, and that is effectively transferring resources from 
sick to healthy patients, and really unwinding some of the 
benefit of insurance, and certainly unwinding the idea of 
community rating that was very popular among policymakers and 
consumers, where you don't pay more for a pre-existing 
condition. And so I think we should look at things around not 
having cost-sharing tied to list prices.
    I also think that you should look at improving the flow of 
information between plan sponsors and PBMs. I think the Senate 
Finance Committee report on insulin pricing was very 
interesting to read through on issues related to administrative 
fees and other non-rebate funds that are flowing between 
manufacturers and PBMs, and I think it would be important for 
everyone in the value chain to have a bit more information 
about the flow of funds so they can negotiate an effective set 
of prices, rebates, and formulary placements.
    Mr. Norman. Would you agree that the first step would be 
getting the actual contracts that the PBMs have, getting the 
actual language so you could delve into it? Would you agree 
with that?
    Mr. Garthwaite. I am concerned about the fact that there 
are such strong auditing requirements for plan sponsors, if 
they want to be able to look at the revenues that they are 
generating for the PBM. While there are obviously concerns 
about confidentiality, regulations around sort of who can be an 
auditor, how many contracts they can see, that the contracts 
are only allowed to be reviewed in paper, at the PBM facility, 
these are all things I think Congress could look into, in the 
spirit of improving information, because the market works best 
when information is common among the negotiating parties.
    Mr. Norman. Well, I would like any solutions that you could 
get to help us do this. All of us, whether you are a Democrat 
or Republican, the price of drugs, particularly those that have 
been around for 70 years, that have not changed as far as 
improvements, we need to know and take action. I am really 
tired of just talking about it. The government is good at, you 
know, forming a committee to get another committee to talk 
about it, but anybody that, you know, has any kind of empathy 
really needs some direct things that we can do. So anything you 
can do, I would appreciate it.
    Mr. Gonzalez, PBMs exclude certain drugs from the 
formularies in favor of other, you know, drugs that may be 
inferior, at best. What kind of actions like this have driven 
up drug prices, I guess, in the market as a whole, that you 
could cite?
    Mr. Gonzalez. Congressman, I mean, generally speaking, my 
experience with PBMs and managed care on formularies is that 
they try to design the plan in a way, the formulary in a way to 
be able to cover a broad set of patients. Humira is an example. 
We compete on formularies. Probably average number of 
competitive products on that formulary is nine or ten, and that 
gives enough flexibility to physicians to be able to alternate 
between different drugs to find the right drug for the patient, 
and in some cases maybe different delivery vehicles. Some are 
injectables. Some are orals.
    So there is typically a fairly broad set of products that 
are available.
    Mr. Norman. But you would agree, as far as trying to get a 
handle on PBMs and their formularies for pricing, we need to 
actually see the contracts that they are going by, to make the 
companies abide by. Would you agree?
    Mr. Gonzalez. Yes, I would agree with that.
    Mr. Norman. OK. Madam Chairman, I yield back.
    Chairwoman Maloney. The gentleman yields back. The 
gentlewoman from Illinois, Ms. Kelly, you are now recognized 
for five minutes.
    Ms. Kelly. Thank you, Madam Chair. One of Humira's 
competitors is Enbrel, an expensive brand name sold by Amgen. 
In a functional competitive market, you would expect companies 
to price their products below their competitors in order to 
gain market share. So in the case of AbbVie and Amgen, they 
would be expected to compete with each, and the result would be 
lower prices for Humira and Enbrel. Dr. Kesselheim, is that 
what we see in the pharmaceutical sector?
    Dr. Kesselheim. Definitely not. The U.S. pharmaceutical 
sector, especially for brand name drugs, I mean, the idea 
behind patents and other regulatory exclusivities is to avoid a 
competitive market, you know, to allow these companies to price 
drugs at a very high level. So what we see, particularly with 
brand name competition, there is not substantial price lowering 
when new products hit the market in the U.S.
    Ms. Kelly. Thank you. On the screen, I would like to put a 
graph prepared by committee staff, which shows AbbVie and 
Amgen's pricing for a year's course of Humira and Enbrel from 
2003 to 2021. The lines are so close together, it is a little 
difficult to tell which is which. That is what shadow pricing 
looks like. For almost two decades, AbbVie and Amgen 
consistently followed each other's price increases. In that 
time, the price of Humira has increased 470 percent, and the 
price of Enbrel has increased 457 percent. According to 
internal company documents obtained by the committee, AbbVie 
viewed Amgen's price increases as cover for its own price 
increases.
    Mr. Gonzalez, in 2012, you received an email from another 
company executive saying it was a ``great weekend.'' This email 
is Exhibit 9 in your packet, as I hope everyone can see. Mr. 
Gonzalez, did you view that as a good development when Amgen 
would raise the price of Enbrel, just out of curiosity?
    Mr. Gonzalez. Just give me one moment to read it.
    Ms. Kelly. OK.
    Mr. Gonzalez. I essentially view this as someone sending me 
an email that just alerted me to the Enbrel price increase, and 
then saying, ``have a great weekend.'' I don't tie those two 
together.
    Ms. Kelly. OK. Do you believe Amgen's price increases give 
AbbVie license to further increase the list of Humira?
    Mr. Gonzalez. No, but I think, Congresswoman, one of the 
things that does happen in this industry that is somewhat 
unique because of the way rebate pools work, is when a 
competitor raises their price, you don't know what the rebate 
is that the competitor has. But what you do know is if you 
don't raise your price, you will be at a disadvantage of how 
much rebate dollars you will be able to contribute. So you have 
seen that there has been some correlation between companies, 
but I think it is driven more by this phenomenon of how rebate 
pools work where you don't want to put yourself at a 
competitive disadvantage because, you know----
    Ms. Kelly. It does seem like increasing the price of Humira 
is exactly what happened. In July, you raised Humira's price to 
$26,632. Less than thee weeks later, Amgen raised the price of 
Enbrel again. And AbbVie says, you know, they price their drugs 
are, ``based on the value that those medicines bring to 
patients in the competitive environment.'' But emails like this 
one uncovered by the committee's investigation seem to 
demonstrate that that is not true.
    And I just want to go back to my prior colleague. I am not 
trying to do things like that, but we need to come to some type 
of solution. This is ridiculous. As you have heard over and 
over, people have to choose, you know, between sometimes death, 
you know, if they can eat or not eat. You know, we all care, 
you know, about making sure that our citizens, people in the 
United States, you know, know can afford drugs, and we do have 
a problem, and I would think you think we have a problem, too, 
despite, you know, innovation and research and development. I 
mean, you have to believe there is a problem.
    Mr. Gonzalez. Congresswoman, I absolutely believe, 
especially in Medicare Part D, that there is a significant 
problem with the out-of-pocket cost approach for those 
patients. What I would tell you is we have tried to set up a 
broad safety net that ensures that any patient who needs our 
drug, regardless of their ability to pay, regardless of their 
ability to have insurance, can get our drug. And that doesn't 
mean we don't miss people, but I can tell you we cover the vast 
majority. We give away $4.3 billion worth of drug every year. 
As I mentioned a few moments ago, 99 percent of uninsured 
people who come to us, we approve and give them free drug. And 
in the case of Humira, you can have an income as high as 
$388,000 and still qualify for free Humira. We are subsidized--
--
    Ms. Kelly. And with all the things that you guys are doing, 
there is still a problem, so we are still not doing something 
right, which I will let other people ask about that because I 
am out of time. Thank you.
    Ms. Porter. [Presiding.] Thank you. The gentleman from 
Kentucky, Mr. Comer, is recognized for five minutes.
    Mr. Comer. Thank you. My questions are for Professor 
Garthwaite. Despite the villainization of Operation Warp Speed 
by committee Democrats, the Federal Government and private 
companies invested hundreds of millions of dollars to develop 
and manufacture COVID-19 vaccine candidates, with no guarantee 
those vaccines would be approved. The result was the first 
vaccine was approved in less than 12 months from this discovery 
of COVID-19 and three vaccines approved to date. Would this 
have been done without private company investment and 
expertise?
    Mr. Garthwaite. I think it is quite simple to say that we 
would not have gotten the vaccine as fast as we did without 
private company expertise, but I also think it is important and 
fair to note, and, honestly, since we also wouldn't have gotten 
it without strong involvement of the government money, both in 
terms of direct financing for some of the clinical trials in 
the case of Moderna, but also the advanced market commitments 
the Federal Government had that they would buy any product they 
did approve. That eliminated some of what we refer to as the 
market risk of developing a drug. And then the subsidizing of 
clinical trials eliminated some of the scientific risk of 
developing a drug.
    Mr. Comer. But what could Congress do to build on the 
momentum of Operation Warp Speed to continue investing in 
treatments and vaccines for other diseases?
    Mr. Garthwaite. This is a really great question actually. 
You know, a lot of us want to put the pandemic behind us. We 
have the vaccine. We are trying to move forward, I think, both 
in the United States and globally. We want to come to a 
solution for this. I think it would be a real shame if we 
squandered the sort of momentum and information we had about 
the importance of investing in vaccines, but also in other 
therapeutics related to anti-infectives. I think, in 
particular, if Congress wants to really work in this area, we 
need to come up with a solution for developing next generation 
antibiotics and how we want to fund the development of them and 
pay for their marketability.
    We knew that prior to the pandemic, but I also want to note 
that the next global disease burden might not be a virus, 
right? It might be antibiotic-resistant bacteria. And I think 
we need to focus on really developing treatments for the next 
pandemic, but realize the next pandemic might look very 
different from COVID.
    Mr. Comer. In today's innovation cycle, I believe less than 
10 percent of drugs get approved. How much investment goes into 
each drug prior to seeking FDA approval?
    Mr. Garthwaite. There is a wide range of estimates on sort 
of the cost of bringing a drug to market. I think the important 
thing to think about here is how we get drugs in the 
pharmaceutical market, and here I will disagree vehemently with 
Representative Porter on sort of how we think about the cycle 
of innovation here. We want, and I think there are lots of you, 
if we were at the Kellogg School and we were in a strategy 
class, I would be teaching companies to pay attention to what 
they are good at and do that.
    Early stage companies are very good at developing 
innovative drugs. Later-stage companies are good at clinical 
trials, dealing with the FDA, sales and marketing. They all 
occupy a very valuable place in the supply chain along with the 
early stage research investments from the NIH. We need all of 
that to bring to market, and we have seen an increasing 
specialization in the pharmaceutical market, not because of 
some worry about anti-competitive practices, but really because 
we want those early stage companies to invest. That said, those 
early stage companies are often going to fail. They are going 
to go out of business. And so when you start to add up sort of 
what do we spend on R&D and you only look at the winners, the 
people whose drugs work, you are doing a disservice to this 
conversation. You also have to look at the losers.
    Mr. Comer. OK. Thank you. My last question is for Mr. 
Gonzalez. AbbVie has received 130 patents on Humira and 88 
patents on Imbruvica. These patterns include intellectual 
property related to the discovery, uses, improvements in 
manufacturing processes of these medications. Can you explain 
why so many patents are necessary for these drugs?
    Mr. Gonzalez. If you look at Humira, it is a classic 
example. We were approved for the first indication, rheumatoid 
arthritis, in 2013. Over the course of the next 14 years, we 
developed additional disease states and indications along the 
way. All of that took research and development, clinical trial, 
working out dosing, and all kinds of technical challenges, and 
we learned and invested in innovation along the way. We applied 
for patents. Whenever we have meaningful innovation, we apply 
for patents.
    The other thing is, I think everyone gets somewhat hung up 
on the number of patents, and I would say that is partially a 
function of the Patent Office in the U.S. that tries to narrow 
patents so that they are not overly broad. So sometimes you 
will have an innovation, and they will say to you, that is five 
different things, go back and break them up into five different 
patents, so that is one of the things that causes a larger 
number of patents. But the more important thing is this: I can 
have one patent, and if no one can work around that patent, 
that is all it would take to extend the exclusivity of the 
product.
    Real innovation is what ultimately gives you the ability to 
have value in a patent. If you have meaningless patents or they 
are frivolous patents, I can file an IPR at the Patent Office 
and have them re-review the patent, and they take down a large 
number of patents. It is not expensive. It is not hard to do. 
And ultimately, competitors did that with our portfolio, and we 
prevailed the vast majority of the times. You can litigate.
    We work around patents all the time. If they are not 
foundational patents, you try to work around them. If you 
believe they are invalid, you invalidate them. You only pay 
royalties and license patents that you believe are fundamental 
to your ability to create the product. And what is very evident 
here is we have highly sophisticated companies, like Amgen, 
like Pfizer. They are just like AbbVie. They made a decision 
that it was worth licensing our patent portfolio and paying us 
a royalty. I can tell you, companies don't do that unless they 
believe those patents are valid and meaningful. We don't do it. 
And so I think that is the best validation to the level of 
innovation and the importance of the portfolio. And in the U.S. 
system, if you create something that is inventive, you deserve 
the right to get protection. And remember one other thing. We 
licensed all biosimilar players 11 years before the last patent 
expired. We thought that----
    Ms. Porter. The gentleman's time has expired.
    Mr. Amin. Congresswoman, may I just intervene there?
    Ms. Porter. The gentleman from Maryland, Mr. Sarbanes, is 
recognized for five minutes.
    Mr. Sarbanes. Thank you, Madam Chair. I appreciate the 
opportunity. I want to take a moment to address an argument I 
keep hearing from the other side, that H.R. 3 and these other 
structural reforms that we are seeking would hurt future 
innovation. We all know that drug companies produce lifesaving 
therapies and vital medications. That is critical. But we also 
know that the current situation is untenable. That is what so 
much of the testimony we receive, the stories we hear from our 
constituents and families across the country, indicates.
    Nearly 1 in 3 Americans say they are unable to take their 
medications as prescribed because of the cost. One out of 3. 
Innovative medications are worthless if people can't afford 
them. I mean, we have to keep that in mind. And drug 
manufacturers like AbbVie argue that current prices are 
necessary to drive innovation and discover new treatments, but 
that is not true. As the committee's investigation revealed, 
much of the research these companies are investing in isn't 
innovative. It is simply meant to preserve their pricing 
monopolies.
    According to a 2017 report by the GAO, novel drugs, meaning 
those recognized by the FDA as meeting a previously unmet need 
or significantly advancing patient care or public health, only 
counted for 18 percent of all drug approvals between 2005 and 
2016. It is important to note that after H.R. 3 passes, and it 
will pass, drug companies will still make a healthy profit. So, 
Dr. Kesselheim, help me out here. Do drug manufacturers still 
make money on their drugs abroad, despite the fact that these 
countries negotiate for lower prices?
    Dr. Kesselheim. They absolutely do, and I agree with you. I 
think this is one of the big misperceptions I have heard 
throughout the day around H.R. 3. H.R. 3 is about trying to 
negotiate prices with respect to brand-name drugs better and to 
sort of more efficiently make the market in the United States 
work, try to ensure that if a drug is not a new or important 
drug, then we won't pay a high price for it. Right now, drug 
companies set prices at whatever level they want, and Medicare 
and Medicaid is required at some levels to pay those prices and 
don't have a good way of pushing back and negotiating prices.
    For really important, useful new drugs for treating 
Alzheimer's disease, I think that under H.R. 3, we would still 
expect to pay a very high price that would make those drugs 
very profitable to the companies that bring them forward. I 
think what H.R. 3 will do is it will give the U.S., just like 
other countries do, the ability to negotiate up front and say, 
well, this drug is worth us paying a high price, and this drug 
is not worth us paying a high price. That is what other 
countries do, and it is how they are able to lower prices on 
the drugs that they pay for, and that is not what we do.
    Mr. Sarbanes. Thanks. That is excellent. I mean, you are 
basically describing a value proposition here. If the value of 
that drug is worth paying for, the market is going to reflect 
that when Medicare goes into the market, the almighty market, 
to negotiate. That is all we are trying to accomplish here, 
what has been done in other places around the world. The other 
thing I will just mention, and you know this for sure, is that 
government research plays a huge role in drug development, so 
taxpayers are investors here. So taxpayers are investing on the 
front end a lot of the times when it comes to the trajectory of 
these medications and drugs, but then having to pay again on 
the back end exorbitantly because of all these maneuvers that 
the industry has managed to embrace.
    So, I will just close with this, Madam Chair. I don't 
really expect Mr. Gonzalez or other pharmaceutical executives 
to behave any differently than they are. There is a profit-
making incentive here that is guiding them. Sadly, the 
executive compensation is, as was, I think, laid bare by 
Congresswoman Porter, and Congressman Welch, and others, is 
operating to drive a lot of this behavior and conduct. There 
isn't a whole lot we can do about that. So, Mr. Gonzalez and 
others are going to behave the way they are. What we can do is 
what we are trying to do, which is to allow the Medicare 
program to negotiate on the price of drugs. It is the American 
thing to do, we ought to do. We ought to pass this bill. Thank 
you for the opportunity and for this hearing, and I yield back 
my time.
    Chairwoman Maloney. [Presiding.] The gentleman yields back. 
The gentleman from California, Mr. DeSaulnier, is recognized 
for five minutes.
    Mr. DeSaulnier. Thank you, Madam Chairwoman, and thank you 
so much for this hearing. I feel your predecessor, Mr. 
Cummings', spirit in the room today. Mr. Gonzalez, I am a 
survivor of CLL. I have some of your product here. This product 
cost about $15,000. My treatment for one pill a day costs about 
$500. In Australia, it costs $30. When I asked my oncology team 
why that was, they said it is because they can. It is upsetting 
to know in your business model that Americans subsidize people 
in other countries. I am obviously grateful for the research 
and development that kept me alive with this drug, but I would 
like to know how it came about and how sustainable it is.
    And the No. 1 increase in bankruptcies for American 
citizens are because of medical bills. So, in addition to 
having to struggle with the co-pays on this product, people 
have to worry about losing their home or going into bankruptcy. 
And if the tradeoff there is for you and your executives to 
make more money, I think that is a question that the American 
public should be aware of, in addition to the fact of why are 
they subsidizing Australians in this instance.
    But I want to ask you a few questions about Humira. In 
2018, AbbVie began selling a high-concentration, citrate-free 
formulation of Humira, which you marketed as a reduced pain 
version of the drug in 2018. Is that correct? Yes or no, 
please.
    Mr. Gonzalez. That is correct.
    Mr. DeSaulnier. Mr. Gonzalez, I want to put up a 2011 
strategy presentation obtained by the committee. This is 
Exhibit 8 in your materials, and if you turn to page 11, you 
will see it. This chart identifies the benefits of various 
research projects AbbVie was engaged in in the left column and 
benefits in the top one. For Humira's high-concentration 
formulation, the presentation identifies ``biosimilar defense'' 
as one of the benefits. Biosimilar defense, Mr. Gonzalez, is 
another way of saying you are protecting from competition, from 
biosimilars, getting into the marketplace. Is that an unfair 
characterization?
    Mr. Gonzalez. I am actually trying to read the page. You 
said page 8, correct?
    Mr. DeSaulnier. No, I said Exhibit 8, page 11.
    Mr. Gonzalez. OK.
    Mr. DeSaulnier. While you are looking for that, I am going 
to continue because I want to use all my five minutes.
    Mr. Gonzalez. I have it now.
    Mr. DeSaulnier. And so that one, the question was 
biosimilar defense. That means, and I understand you have got 
an obligation to your shareholders in your investments. You are 
trying to defend against biosimilars getting into the market 
sooner than taking away profit share, correct?
    Mr. Gonzalez. I don't believe that that is what that means. 
What it means is we were working on a formulation which would 
reduce pain upon injection. There were multiple aspects of 
that, a smaller needle, high concentration, and removing the 
citrate buffer.
    Mr. DeSaulnier. OK.
    Mr. Gonzalez. We believed that would be a differentiated 
product for patients.
    Mr. DeSaulnier. I apologize for interrupting. It is the 
five-minute rule. I would love to take more time. Let's put up 
another slide, this time from a presentation to the board of 
directors in 2015. This is Exhibit 17, and it is the first 
slide and that is up. The presentation states, ``Our defense 
strategy remains the same,'' and the second bullet below 
defending intellectual property says, ``Gain approval, EU/US, 
of Humira high-concentration formulation.'' In both of these 
slides, there is no designation for reducing patients' pain. 
Now, earlier you confirmed that AbbVie introduced high-
concentration formulation in 2018, correct?
    Mr. Gonzalez. Correct.
    Mr. DeSaulnier. FDA approved it in 2015. Why did you wait 
three years to bring the product up after the FDA approved it?
    Mr. Gonzalez. Yes. I mean, we had to buildup the 
manufacturing capacity because it required a different 
manufacturing capacity. So we actually introduced it first in 
just pediatric patients because that is where the need was the 
greatest to reduce pains, and then we moved forward from that 
to be able to offer it in a more broad-scale market.
    Mr. DeSaulnier. Some skeptics would say that the reason for 
the delay was to wait until biosimilar manufacturers had 
already invested significant resources in developing biosimilar 
versions of the original formulation, so you shifted patients 
to high-concentration formulation. This anti-competitive 
strategy is commonly referred to as product topping. Mr. 
Gonzalez, is that an unfair description of what was happening 
here?
    Mr. Gonzalez. I think it is an unfair description of what 
was happening here. To your point a moment ago, Congressman, 
when we launched in Europe, the majority of biosimilars had 
citrate-free, high-concentration products, so it is not like 
this did anything to inhibit their ability to do that. The 
second thing I would say is both products are still on the 
market in the United States, so that won't change any ability 
for a biosimilar to come to the marketplace. And ultimately we 
license, through our settlement agreements, all of the IP we 
have around high concentration and citrate free. So there is no 
difficulty for biosimilars to come forward in the marketplace 
with a prior license.
    Mr. DeSaulnier. Mr. Gonzalez, I am going to interrupt you 
there, and, again, I apologize. Madam Chair, just before I 
yield back----
    Mr. Higgins. Time.
    Mr. DeSaulnier. Arbutimine, which I have spent a lot of 
time on, and I am happy that I was the founder of the Cancer 
Survivors Caucus, is----
    Mr. Higgins. Time.
    Mr. DeSaulnier [continuing]. We would just like to see your 
books to see how much money goes into innovation for research 
and development and how much of it goes into financial 
innovation. I yield back.
    Chairwoman Maloney. The gentleman's time has expired. The 
gentlelady from Massachusetts, Ms. Presley, is recognized for 
five minutes.
    Ms. Pressley. Thank you, Madam Chair. Patients taking 
AbbVie's No. 1 drug, Humira, are battling chronic joint 
inflammation, fatigue, and other painful symptoms of rheumatoid 
arthritis. Now, the ironic thing here is this medication is 
meant to help people, to alleviate their hurt and pain, but due 
to steady price increases, AbbVie is causing greater physical 
pain, mental hurt, and financial hardship as well. The cost of 
prescription drugs is causing strife and suffering for families 
across the Nation, and as fatigued as you may be by hearing 
these sobering, gut-wrenching accounts, people are even more 
fatigued by living them and experiencing them daily.
    I have heard from people throughout my district who are 
forced to cut pills in half to make them last, people who are 
paying medication costs that are the equivalent of a college 
tuition, state college, and, at times, even exceeding that, 
heart-wrenching, unjust choices people are making simply to 
survive, and these individuals are not outliers. According to a 
2013 research study from the University of North Carolina, 22 
percent of individuals with arthritis were forced to spend less 
on basic necessities as a result of high drug prices, and 1 in 
5 reported taking fewer medications than prescribed due to 
cost. Madam Chair, I would like to enter that 2013 research 
study from U of NC into the record.
    Chairwoman Maloney. Without objection.
    Ms. Pressley. Dr. Kesselheim, from your experience serving 
families in my district, the Massachusetts 7th, how can 
tradeoffs like these impact the patient's overall health?
    Dr. Kesselheim. Oh, very substantially. I mean, I think a 
lot of patients struggle with high drug prices and, you know, 
come looking for, you know, ways of trying to address those, 
you know, when they come into my office. And, you know, there 
are sometimes that I can send them to, you know, patient 
support groups, but a lot of times, unfortunately, they may not 
qualify or there may be a lot of hoops that they have to jump 
through, or those kind of, you know, charity, but charity only 
lasts for a certain amount of time and then it ends. So, you 
know, I think that this is a major issue, and it leads people 
to stop taking their medications or to, you know, have to make 
difficult decisions about other spending in their lives as 
well.
    Ms. Pressley. Thank you. Mr. Gonzalez, you know your 
company's pricing decisions have very real impacts on patients' 
lives. The committee reviewed approximately 400 complaints from 
patients and caregivers begging you to lower the price of 
Humira, yet your company repeatedly does the opposite and 
denies desperately needed relief for these patients. Although 
your primary patent expired in 2016, there is still no 
competition in the U.S. market. Now, according to documents the 
committee received as a part of our investigation, on page 9 of 
Exhibit 14, AbbVie executives predicted that Humira would have 
three to five biosimilar competitors in the U.S. by the first 
quarter of 2017. Mr. Gonzalez, did that prediction come to 
pass? Yes or no.
    Mr. Gonzalez. No.
    Ms. Pressley. It did not, that is right. Using a variety of 
anti-competitive practices, AbbVie has suppressed alternative 
drug options in the U.S. market until 2023. That will allow 
your company to continue to exploit patients and to rake in 
astronomical profits. Mr. Gonzalez, will you admit the lack of 
competition means that government has to pay more, and patients 
have to make greater sacrifices? Yes or no.
    Mr. Gonzalez. Congresswoman, I would like to address the 
comment you made earlier.
    Ms. Pressley. Yes or no, Mr. Gonzalez.
    Mr. Gonzalez. Yes.
    Ms. Pressley. Are patients having to pay more and make 
greater sacrifices? AbbVie's own documents estimate that the 
delay will cost the U.S. healthcare system at least an 
additional $19 billion, and for patients, it will cost them 
their physical, psychological, and financial health. We live in 
the richest country on the planet, yet drug prices are so high 
that people can't afford to live happy, healthy, longer lives. 
People demand deserve and require better from AbbVie and all 
other price gouging drug companies. Thank you, and I yield 
back.
    Chairwoman Maloney. The gentlelady yields back. The 
gentleman from California, Vice Chair Gomez, is recognized for 
five minutes.
    Mr. Gomez. Thank you, Madam Chair. I wanted to focus in on 
a part of Mr. Gonzalez's testimony. He mentioned AbbVie's use 
of a Patient Assistance Program, which we examined last fall. 
But before I go on to Mr. Gonzalez, Dr. Kesselheim, is it 
correct to say manufacturers like AbbVie benefit from third-
party patient assistance foundations? Yes or no.
    Dr. Kesselheim. Yes, they do.
    Mr. Gomez. Thank you. And one of those third-party 
foundations is the Patient Access Network, or PAN Foundation. 
Mr. Gonzalez, your company makes donations to the PAN 
Foundation, correct?
    Mr. Gonzalez. Correct.
    Mr. Gomez. I would like to display a November 2017 email 
from Mr. Dan Klein, the president of the PAN Foundation, to 
AbbVie's director of the Patient Access Program. This is 
Exhibit 27 in your packet. In this email, Mr. Klein is seeking 
a donation from your company to help offset the cost of the 
drug, Humira. He wrote, ``We also know these patients would be 
much more likely to start and stay on treatment if they were 
not stymied by high, out-of-pocket cost.'' Mr. Klein is 
essentially saying that by making a donation to his foundation, 
AbbVie will be able to attract and retain more Humira patients. 
Mr. Gonzalez, are donations to patient assistance foundations 
part of AbbVie's strategy to maximize sales or the use of your 
product?
    Mr. Gonzalez. No, they are not. We do it as a donation 
because we feel that it is appropriate. We do it by disease 
state. The foundation is not required to use our drug. They can 
provide----
    Mr. Gomez. Thank you so much. Let me reclaim my time. Mr. 
Gonzalez, I would like to switch gears. I understand that 
AbbVie co-promotes your cancer drug, Imbruvica, with Janssen 
Pharmaceuticals, so that means your company jointly developed 
the sales and marketing strategy for this drug, right?
    Mr. Gonzalez. That is correct.
    Mr. Gomez. But AbbVie's subsidiary, Pharmacyclics, leads 
U.S. commercialization and sales, correct?
    Mr. Gonzalez. That is correct.
    Mr. Gomez. In 2017, AbbVie and Janssen executives met to 
evaluate ``optimal spend to maximize Imbruvica sales growth in 
existing and new indications.'' This is Exhibit 24 in your 
packet. A chart on page 22 of the presentation breaks down the 
proposed spending for the next fiscal year. The chart includes 
a line item for foundations with the proposed, ``collaboration 
spend of $55 million in Fiscal Year 2017.'' This is the largest 
single proposed increase of any spending amount two companies 
would spend together, correct?
    Mr. Gonzalez. I am not familiar with this document, but I 
would assume so, yes.
    Mr. Gomez. So let me ask you again. Are donations to the 
Patient Assistance Foundations part of AbbVie's strategy to 
maximize sales? Yes or no.
    Mr. Gomez. No.
    Mr. Gomez. Mr. Gonzalez, you also said that your patient 
assistance programs provide one year free drug costs, right? 
Correct?
    Mr. Gonzalez. That is correct.
    Mr. Gomez. What happens to the patient after that one year?
    Mr. Gonzalez. They reapply and we refund it.
    Mr. Gomez. And the reason why I am asking this is that, you 
know, we understand that a lot of the investment, everything 
from research to marketing, also the donations to these 
foundations, is all taken on into the price of the drug. It 
might appear that it is something that is altruistic, but you 
also get tax write-offs. You also get other benefits. I am one 
of the few members of this committee who also serves on the 
Ways and Means Committee, which is the tax committee. A lot of 
the programs that you are talking about is just a way to get 
people hooked on these drugs that are high cost in the long 
term. It subsidizes the patient, but that is not who you are 
going after. Really, these drug companies are going after the 
spin from the insurance companies, increasing the number of 
people that are on the drug, but also increasing the amount of 
money that you are receiving.
    One of the things that we need to do is we understand that 
the system is broken, everything from the drug companies, to 
the insurance companies, to now the patient assistance 
programs, that all jack up the price of pharmaceutical drug 
prices in this country. With that, I yield back.
    Chairwoman Maloney. The gentleman yields back. I thank him 
for his statement. But before we close, I would like to offer 
the ranking member an opportunity for any closing remarks. 
Ranking Member Comer, you are now recognized.
    Mr. Comer. Thank you, Madam Chair, and I just want to be 
very clear what the Republican position is. We strongly support 
a patent system that encourages innovation. However, we 
certainly don't want to see a patent system that is abused, and 
there are always going to be bad actors, and those bad actors 
need to be held accountable. But to be completely candid about 
this conversation and the Democrat proposal that has been 
mentioned several times today, the Biden Administration and the 
House Democrats have lost a lot of credibility when we talk 
about the patent system when the Biden Administration announced 
its effort to give our pharmaceutical intellectual property, 
with respect to the COVID vaccine, to China, a country that 
still has a lot of questions to answer about the origination of 
the COVID-19 virus. So we have got some credibility issues on 
the other side of the aisle with respect to the patent system.
    Nobody wants to see price gouging. Nobody wants to see 
excessive CEO pay on the backs of hardworking Americans that 
have to make a decision on whether to pay for their medicine or 
put food on the table. We all know the horror stories, and we 
all know people that have had terrible experiences in trying to 
buy medication. I think there is a way that we can come to 
terms and protect our patent system because it takes 
investment, private sector investment, to come up with the 
cures for all the diseases that we want cured in America. But 
at the same time, we have to make sure that the patent system 
is not abused.
    So I look forward to working with Members of Congress that 
feel this way and that will respect our patent system, but hold 
those accountable who choose to abuse the patent system. With 
that, Madam Chair, I yield back.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    Before I close, I would like to enter into the record 
several letters and statements for the record the committee 
received leading up to today's hearing. These statements 
include: Professor Robin Feldman at UC Hastings Law, Protect 
Our Care, Families USA, the American Economic Liberties 
Project, the Health Advocacy Summit, the Maryland Citizens 
Health Initiative, Treatment Action Group, and many more. I ask 
unanimous consent that these materials be entered into the 
official hearing record.
    So ordered.
    Chairwoman Maloney. At the beginning of today's hearing, we 
heard patient stories of how they struggled to afford AbbVie's 
products, including Humira and Imbruvica. AbbVie's CEO, Mr. 
Gonzalez, thought to cast blame on others for AbbVie's high 
prices, but the facts show that AbbVie raised prices on 
Americans for one simple reason: greed. This morning, we 
released a staff report based on our review of over 170,000 
pages of AbbVie's own documents and data. These documents show 
AbbVie intentionally targeted the U.S. for higher prices as it 
cut prices in the rest of the world. And Mr. Gonzalez admitted 
today that his company charges higher drug prices in the United 
States because other countries are doing such a good job of 
negotiating lower prices for their citizens. Every American 
should be outraged.
    AbbVie's internal data show that Medicare would have saved 
billions of dollars had it been able to negotiate directly with 
the company. The documents also show that the financial 
assistance for patients that AbbVie provides are not actually 
charity. They make AbbVie more money by keep using their 
products. AbbVie has also claimed that it needs to charge high 
prices to stimulate innovation, but the company's own internal 
documents show that much of its research budget is actually 
dedicated to suppressing competition. AbbVie also employed 
potentially illegal anti-competitive tactics to delay lower 
price biosimilars from coming to market. Those tactics led to 
higher prices and less innovation for Americans, but more 
profits for the executives at AbbVie.
    Enough is enough. Congress has an opportunity, and I would 
say a responsibility, to ensure that Americans no longer have 
to choose between taking their lifesaving medication or paying 
their rent and putting food on their table. We must pass H.R. 
3, which would finally empower Medicare to negotiate lower 
prices, just like the Defense Department and the VA-HUD already 
do, and that foreign countries, they do. And we must pass 
legislation to crack down on AbbVie's anti-competitive abuse so 
market competition can drive down prices.
    I urge my colleagues on both sides of the aisle, especially 
those on the other side of the aisle who have acknowledged the 
harm caused by skyrocketing drug prices, to join me in pushing 
for these reforms. This should be a bipartisan issue. I hope we 
can all agree that no person should go without potentially 
lifesaving treatment in this country. Let's act together. Let's 
do something about it. Let's help the American people.
    I thank everyone who participated, and I particularly want 
to thank our panelists for their remarks, and I want to commend 
my colleagues for their important contributions, their 
questions, for participating in this important conversation.
    With that, and without objection, all members have five 
legislative days within which to submit extraneous materials 
and to submit additional written questions for the witnesses to 
the chair, which will be forwarded to the witnesses for their 
response. I ask our witnesses to please respond as promptly as 
they are able to.
    Chairwoman Maloney. I also want to thank the staff of the 
Oversight Committee for what I would call a labor of love and 
deep commitment, and you can see that in reading their report. 
I particularly thank the team leaders, Ali Golden and Amish 
Shah, for an extraordinary effort and an extraordinary hearing 
today.
    This hearing is adjourned.
    [Whereupon, at 1:44 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
